APPENDIX

1a
Appendix A
VIRGINIA:
IN THE CIRCUIT COURT
OF THE CITY OF FREDERICKSBURG
No. CASE 19-395
TRUSTEES OF THE NEW LIFE
IN CHRIST CHURCH,
Plaintiff,
v.
CITY OF FREDERICKSBURG,
Defendant.
____________
ORDER GRANTING DEFENDANT'S MOTION
FOR SUMMARY JUDGMENT
____________
CAME THIS DAY THE Parties, by their respective counsel, on the City's Motion for Summary Judgment, the briefs both in support and in opposition, and
presented their argument before this Court which
having been duly considered, this Court hereby
SUSTAINS the City's Motion for Summary Judgment based upon facts presented through pleading
and discovery indicating that the residents of the real

2a
estate known as 1708 Franklin Street, Fredericksburg, are not "the minister" as required under Virginia Code §58.l-3606(A)(2).*
This matter is therefore DISMISSED with prejudice.
DATE: Feb 18, 2020

JUDGE: __Patricia Kelly___

SEEN AND OBJECTED TO: for the reasons stated
on brief and at oral argument
By: __T. Wayne Biggs__________________
T. Wayne Biggs, Esq. (VSB No. 41281)
10533 Main Street
Fairfax, VA 22030
T: (703) 383-0100
F: (703) 383-0101
twbiggs@dyciaolaw.com
Counsel for Plaintiffs
SEEN AND AGREED:
__John A. Rife___________________
John A. Rife, Esq. (VSB No. 86372)
Taxing Authority Consulting Services, PC
PO Box 31800
Henrico, Virginia 23294-1800
T: (804) 545-2379
F: (804) 545-2378
john@taxva.com
andy@taxva.com
And

* The court notes it has read briefs of both parties and the
cases cited therein.

3a
Kathleen Dooley VSB #25725
Fredericksburg City Attorney
600 Caroline Street
Fredericksburg, Virginia 22401
kdooley@fredericksburgva.gov
Counsel for Defendant

4a
Appendix B
VIRGINIA:
In the Supreme Court of Virginia held at the
Supreme Court Building in the City of Richmond on Wednesday the 3rd day of March, 2021.
No. CASE 19-395
TRUSTEES OF THE NEW LIFE
IN CHRIST CHURCH,
Plaintiff,
v.
CITY OF FREDERICKSBURG,
Defendant.
____________
FROM THE CIRCUIT COURT OF THE
CITY OF FREDERICKSBURG
Upon review of the record in this case and consideration of the argument submitted in support of and
in opposition to the granting of an appeal, the Court
is of the opinion there is no reversible error in the
judgment complained of. Accordingly, the Court refuses the petition for appeal.
Justice McCullough took no part in the resolution
of the petition.
A Copy,
Teste:
Douglas B. Robelen,
Clerk

5a
By:
Deputy Clerk

6a
Appendix C
VIRGINIA:
IN THE CIRCUIT COURT
OF THE CITY OF FREDERICKSBURG

No. CASE 19-395
TRUSTEES OF THE NEW LIFE
IN CHRIST CHURCH,
Plaintiff,
v.
CITY OF FREDERICKSBURG,
Defendant.
____________
AMENDED COMPLAINT
COME NOW the Trustees of the New Life in
Christ Church, by Counsel and for their Amended
Complaint states as follows:
1. This is an application for relief brought pursuant to § 58.1-3984 Va. Code.
2. New Life in Christ Church (hereinafter
"Church") is an unincorporated congregation located
in Spotsylvania County Virginia.
3. The Plaintiffs Robert Williams Jr., Thomas J.
Worman, Jeff McConnell and Peter O'Hara (hereinafter "Trustees") are the trustees of the Church and
have been properly selected under the provisions of
the Church's constitution and bylaws.

7a
4. On or about June 30, 2017 the Church by and
though its trustees purchased property in the City of
Fredericksburg located at 1708 Franklin Street Fredericksburg, Virginia 22407 ("Property"). A copy of the
Deed of Conveyance of the Property to the Church
along with a copy of the Order entered by the Fredericksburg Circuit Court allowing the Trustees to encumber the Property, is attached to this action as "Exhibit A".
5. The Property was purchased by the Church to
be used as the residence of the Minister of the Church
and has in fact been used as residence of the church
Minister since its purchase.
6. Upon the purchase of the Property the Trustees have on numerous occasions attempted to file for
tax exempt status of the property pursuant to Article
X Section 6 (a) (2) of the Virginia Constitution, but the
City of Fredericksburg has refused to take or accept
the application and/or grant tax exempt status to the
Property.
7. The Property purchased by the Church is entitled to tax exempt status pursuant Article X Section
6 (a) (2) of the Virginia Constitution in that the property is used as the residence of the Church Minister.
The Property purchased by the Church further qualifies for tax pursuant to § 58.1-3606(A)(2)(ii) as the
property is "for the residence of the minister" of the
Church.
8. The City of Fredericksburg's refusal take or
accept the application and grant the Church's Property tax exempt status is in violation of the Church's
right under Article X Section 6 (a) (2) of the Virginia
Constitution and in violation of § 58.1-3606(A)(2)(ii).

8a
9. The Church has been erroneously assessed
and has paid property taxes on said Property from the
date of its purchased to the present, paying the City
of Fredericksburg property taxes in the amount of
Five Thousand Seven Hundred Eighteen Dollars
($5,718.00).
10. The Church is entitled to a refund of all property tax payments paid to the City of Fredericksburg
with interest on said payment at the legal rate until
said tax payments are refunded to the Church.
11. The Church has been erroneously assessed
property taxes on the Property. The Property qualifies as tax exempt pursuant to Article X, Section
6(a)(2) of the Virginia Constitution and pursuant to
§ 58.1-3606(A)(2)(ii).
12. Section 58.1-3984 provides that a person "aggrieved by any [local tax] assessment, may, . . . . apply
for relief to the circuit court of the county or city where
such assessment was made." The Church hereby applies for such relief.
WHEREFORE, the Church prays for the following
relief:
A. That pursuant to § 58.1-3984 Va. Code, the
Court find that the assessment of the Property was
erroneous as the Property is exempt from taxation
pursuant to Article X, Section 6(a)(2) of the Virginia
Constitution and pursuant to § 58.1-3606(A)(2)(ii) Va.
Code.
B. That the court determine that such Property
is exempt from taxation pursuant to Article X, Section
6(a)(2) of the Virginia Constitution and pursuant to
§ 58.1-3606(A)(2)(ii) Va. Code.

9a
C. That the Court order the City of Fredericksburg to refund to the Church any taxes erroneously
paid including interest as may be allowed by law.
D. For such other and further relief which the
Court may be authorized to award.
TRUSTEES OF THE NEW LIFE
IN CHRIST CHURCH
By Counsel
__T. Wayne Biggs______________
DYCIO & BIGGS
T. Wayne Biggs, Esq. VSB#41281
10533 Main Street
Fairfax, Virginia 22032
703-383-0100
703-383-0100
twbiggs@dyciolaw.com
Robert M. Byrne
10619 Jones Street
Third Floor
Fairfax, Virginia 22030
703-352-7877
VSB. 23732
robertmbyrne@rmbyrnelaw.com
Counsel for Plaintiffs
CERTIFICATE OF SERVICE
I hereby certify that on this _23_, day of _August_,
2019, I caused a true and accurate copy of the foregoing to be mailed by U.S. mail, postage pre-paid, first
class and via facsimile (where indicated) as follows:
John A. Rife, Esq. VSB #45805
Taxing Authority Consulting Services, PC

10a
PO Box 31800
Henrico, Virginia 23294-1800
(804) 545-2500
Facsimile (804) 545 2378
And
Kathleen Dooley (VSB# 25725
Fredericksburg City Attorney
600 Caroline Street
Fredericksburg, Va 22401
__T. Wayne Biggs___
T. Wayne Biggs, Esq.

11a
EXHIBIT A
TITLE INSURANCE UNDERWRITER:
FIRST
AMERICAN TITLE INSURANCE COMPANY
Prepared by M. J. Barrett, Esq.
(Virginia State Bar #20674)
816 William St.
Fredericksburg, Virginia 22401
Return to Grantee
Grantee's Address
Consideration: $470,000.00
11925 Burgess Lane
Assessed
Value:
$476,500.00
Fredericksburg, VA 22407 Parcel ID #7779-67-7036
THIS DEED, made and entered into this 30th day
of June, 2017, by and between FALKERMAN, LLC, a
Virginia limited liability company, GRANTOR; and
THOMAS
J.
WOMAN,
TRUSTEE,
JEFF
MCCONNELL, TRUSTEE, ROBERT WILLIAMS,
JR, TRUSTEE, and PETER O'HARA, JR, TRUSTEE,
collectively, the TRUSTEES OF NEW LIFE IN
CHRIST CHURCH, GRANTEES.
WITNESSETH:
That for and in consideration of the sum of Ten
Dollars ($10.00), cash in hand paid, and other valuable consideration, the receipt of which is hereby
acknowledged, the Grantor does hereby bargain, sell,
grant and convey unto the Grantees, with General
Warranty and English covenants of Title, in fee simple, the following described real estate, to-wit
All that certain lot or parcel of land with all buildings and improvements thereon, and all rights
and privileges appurtenant thereto, situate, lying
and being in the City of Fredericksburg, Virginia,

12a
and being known and described as LOT ELEVEN
(11),
in
BLOCK
"C"
of
KENMORE
SUBDIVISION, lying on the western side of
Franklin Street at its intersection with Fitzhugh
Street, the metes and bounds of which are shown
on a plat made by J. C. Russell, C.S., dated May
25, 1960, and attached to and recorded with deed
of record in Deed Book 114, at Page 126 of the land
records in the Clerk's Office of the Circuit Court of
the City of Fredericksburg, Virginia, and designated thereon as the Original Lot 11:
LESS AND EXCEPT, HOWEVER, a strip of land
ten (10) feet wide, fronting on Franklin Street and
running to the original south boundary, as shown
on said plat, the frontage on said Lot 11 hereby
conveyed being 88.4 feet on Franklin Street and
75 feet at the rear lot line, and being a portion of
the original lot shown on plat recorded in the
Clerk's Office of the Circuit Court of the City of
Fredericksburg, Virginia, in Deed Book 76, at
Page 433.
Being the same property which was conveyed to
Falkerman, LLC by deed from John F. Hyland
and Karen-Marie Hyland, dated December 15,
2015, filed for record on December 16, 2015, as Instrument #150003007, in the aforesaid Clerk's Office.
This conveyance is made subject to all easements,
restrictions and reservations of record validly affecting the property conveyed herein.
WITNESS the following signature(s) and seal(s):
FALKERMAN, LLC

13a
By: __Heather Hagerman__

(SEAL)

HEATHER HAGERMAN, Manager
STATE OF VIRGINIA
CITY OF FREDERICKSBURG, to-wit:
The foregoing Deed was acknowledged before me
this 30th day of June, 2017, by HEATHER
HAGERMAN, who a Manager of FALKERMAN, LLC,
a Virginia limited liability company.
My commission expires: __8/31/2020____
__Aimee Lynette Meade____
Notary Public
Registration No. 7166343

14a
VIRGINIA:
IN THE CIRCUIT COURT OF THE CITY OF
FREDERICKSBURG
)
Re: NEW LIFE IN CHRIST )
CHURCH,
)
A Virginia Religious Con- )
)
gregation
)

CL17-397

ORDER
This day came petitioners, Thomas J. Worman,
Trustee of New Life in Christ Church, Jeff McConnell,
Trustee of New Life in Christ Church, Robert Williams, Jr., Trustee of New Life in Christ Church and
Peter O'Hara, Jr., Trustee of New Life in Christ
Church (hereinafter, collectively, the "Trustees"), requesting this Court, pursuant to Sections 57-15 and
57-15.1 of the Code of Virginia, grant leave for the
New Life in Christ Church (the "Church") to encumber certain real property which it intends to acquire
at 1708 Franklin Street in the City of Fredericksburg,
Virginia (the "Property") with a deed of trust to secure
the borrowing necessary to acquire the Property, and
to execute such documents on behalf of the Church as
may be required to effect same.
Upon consideration thereof it appearing from the
Petition that the Petition has been authorized by the
congregation of the Church and that the prayer should
be granted, it is hereby:
ORDERED that the Church be, and it hereby is,
granted leave to encumber the Property with a deed

15a
of trust to secure the borrowing necessary to acquire
the Property, and the Trustees are hereby authorized
to execute such documents on behalf of the Church as
may be required to effect same without personal liability, as more specifically provided in Section 57-15.1
of the Code of Virginia.
ENTER: 06/09/2017
__Sarah L. Deneke_______
Judge
Heather Aubain
Jun 19 2017 1:28 PM

I ask for this:
___Paul A. Simpson__________
Paul A Simpson (VSB #27460)
PARRISH SNEAD FRANKLIN SIMPSON, PLC
910 Princess Anne Street
P.O. Box 7166
Fredericksburg, Virginia 22404-7166
(540) 373-3500
Fax: (540) 899-6394
E-mail: simpson@parrishsnead.com
Counsel for Petitioners

16a
Appendix D
VIRGINIA:
IN THE CIRCUIT COURT
OF THE CITY OF FREDERICKSBURG
Case No. CL19-395
TRUSTEES OF THE NEW LIFE
IN CHRIST CHURCH,
Plaintiffs,
v.
CITY OF FREDERICKSBURG,
Defendant.
CITY OF FREDERICKSBURG’S ANSWERS
AND RESPONSES TO TRUSTEES OF THE
NEW LIFE IN CHRIST CHURCH’S FIRST SET
OF WRITTEN INTERROGATORIES
COMES NOW, the City of Fredericksburg (the
“City”), by counsel, and for its Answers and Responses
to the Trustees of the New Life in Christ Church’s
First Set of Written Interrogatories states as follows:
INTERROGATORIES
1. Please identify the individual answering
these Interrogatories on behalf of the City and
identify the individual’s authority to answer
these Interrogatories on behalf of the City.

17a
ANSWER:
Various Attorneys of Taxing Authority Consulting Services, PC, including John Rife, Andrew Neville, and Ray Warren, and the City of
Fredericksburg City Attorney, Kathleen
Dooley. Taxing Authority Consulting Services, PC was retained by the City Attorney to
aid in the above-styled litigation. The City Attorney’s authority to answer in this matter is
self-evident.
2. Please identify the factual basis for the City’s
denial in its Answer of the allegations in paragraph 5 of the Amended Complaint.
ANSWER:
The City denied the allegations in Paragraph
5 of the Amended Complaint because the residence is not occupied by “the minister” of the
congregation as defined by Virginia law, but is
instead occupied by two individuals who are
not ordained as teaching elders, are not ordained pastors, do not exercise sacramental or
administrative authority over the congregation, and are not “set apart as the leader” by
the local congregation or the denomination to
which the local congregation belongs. See Answer 7, below.
3. Please identify the factual basis for the City’s
denial in its Answer of the allegations in paragraph 6 of the Amended Complaint.
ANSWER:
The denial of Paragraph 6 of the Amended
Complaint relates to the statement that the

18a
City “refused to take or accept the application
and/or grant tax exempt status to the Property.” The allegation suggests that the City
failed to even consider the application of the
Church, which is simply false. Through the
detailed letter provided by the City Attorney,
Kathleen Dooley, the City not only considered
the application, but explained in great detail
why such application was to be denied.
4. Please identify the factual basis for the City’s
denial in its Answer of the allegations in paragraph 7 of the Amended Complaint.
ANSWER:
The City’s denial of Paragraph 7 of the
Amended Complaint rests on the same reasoning as is listed in Answer 2, above.
5. If it is your contention that the New Life in
Christ Church cannot designate Josh Storms
as a minister, please identify the basis for
your contention.
ANSWER:
The congregation can grant any title it desires
to one of its members, but the City contends
that in order to be considered a minister of the
Church for the purposes of seeking tax exempt
status pursuant to the Constitution of Virginia and Virginia Code § 58.1-3606 that strict
adherence to the Church’s governing requirements must be followed and simply designating an individual as a “college minister” does
not overcome the strict construction required
to allow for such exemption under Virginia

19a
law. As more fully set out in Answer 7, below,
the organizational documents governing the
congregation that owns the property specifically utilize the term “minister” in ways that
exclude Mr. Storms. Furthermore, the congregation’s own public pronouncements state
that one or more persons other than Mr.
Storms exercise(s) the role of “the minister” as
defined in the statute and the Virginia Constitution.
6. If it is your contention that the New Life in
Christ Church cannot designate Anacari
Storms as a minister, please identify the basis
for your contention.
ANSWER:
In addition to the reasons stated in Answer 5,
above, the organizational documents of the
Church disallow a female from holding the position of the minister of the Church.
7. If it is your contention that in order for the
Property to be tax exempt, the person residing
there must be an “ordained” minister under
the provision of the Book of Church Order,
please identify the basis for any such contention.
ANSWER:
Virginia courts have ruled that the term “minister” refers to “the head of a religious congregation, society or order. He is set apart as the
leader. He is the person elected or selected in
accordance with the ritual, bylaws or discipline of the order.”

20a
The organizational documents of the Plaintiffs’ congregation utilize the term “minister”
in contexts that make it clear that the term
refers to a duly ordained person with specific
leadership duties. (See Chapter 21 of the
Book of Church Order entitled “The Ordination and Installation of Ministers” and Chapter 34 of the Book of Church Order entitled
“Special Rules Pertaining to Process Against
a Minister”. Also see Chapter 58 of said Book
regarding “the administration of the Lord’s
Supper” and Chapter 56 of said Book regarding “the administration of baptism”).
The church website states that “The Senior
Pastor together with the Associate Pastor and
Ruling Elders form the Session (or governing
body) of the church who are responsible for
caring for the spiritual needs of the congregation.” Neither of the residents of the property
are a senior pastor or associate pastor.
Whether a non-ordained person can be “the
minister” for legal purposes in the context of
different religious denominations or traditions depends on the organizational policies of
the organization. But in the context of a congregation affiliated with the Presbyterian
Church in America, and specifically of the local congregation to which the plaintiffs belong, the organizational documents of the
church and the local congregation define “the
minister” as an ordained person. Even if ordination is not required for a person to be the
person “set apart as the leader” of a local PCA

21a
congregation, the statements, pronouncements and documents of the Plaintiffs’ congregation clearly identify a person or persons
other than the occupants of the property as
fulfilling that role.
8. If it is your contention that in order for any
property to qualify as the “residence of the
minister” within the meaning of § 58.13606(A)(2)(ii) the person residing at such
property must be “ordained,” please identify
the basis of your contention.
ANSWER:
See Answer 7, above.
9. If it is your contention that in order for any
property to qualify as the “residence of the
minister” within the meaning of § 58.13606(A)(2)(ii) the person residing at such
property must be the person who delivers regular sermons during regular worship hours,
please identify the basis for your contention.
ANSWER:
The person who resides in the property must
be “set apart as the leader” of the congregation
and “the person elected or selected in accordance with the ritual, bylaws or discipline of
the order.” Whether regularly delivering sermons is a responsibility of such a person depends on the polity and organizational structure of the particular religious organization.
In the context of the Presbyterian Church in
America, the Plaintiffs’ congregation, delivery

22a
of the sermon is normally the duty of the person set apart as “the minister”. Thus, whether
the residents deliver regular sermons is probative and relevant to whether he or she is the
person set apart as the leader in accordance
with the Church’s organizational structure.
10. Please identify all instances within the past 5
years in which the City has denied a filing for
tax exempt status for real property owned by
a church where the factual basis for the exemption claimed was that the real property
was the residence of the minister.
ANSWER:
Other than the Property subject to this suit,
there have been no other denials of tax exempt
status by the City within the past five years.
11. Please identify all instances within the past 5
years in which the City has approved a filing
for tax exempt status for real property owned
by a church where the basis for the exemption
claimed was that the real property was the
residence of the minister.
ANSWER:
There has been one application for tax exemption granted in the last five years related to
the application of a religious organization for
the residence of its minister. The property involved is located at 1104 Anderson Street,
which is owned by the Trustees of the Way
Evangelical Ministries and was confirmed to
be the full-time residence of its minister, Pastor Matt Rothe.

23a
12. Please identify any expert witness you intend
to call to testify at any hearing on this matter
and please provide all information discoverable as to expert testimony under Rule 4:1 of
the Rules of Supreme Court.
ANSWER:
The City has not yet identified any expert that
might be called to testify in this matter at this
point, but will supplement this Answer should
any determination be made to designate any
individual as such expert to testify.
I hereby swear and affirm under penalty of perjury
that the foregoing is true and accurate to the best of
my information, knowledge, and belief. The actual
wording of answers may be that of Plaintiff’s attorney.
Date: _January 9, 2020_ Signed: _______________
Name: _______________
Title: ________________

Respectfully submitted,
City of Fredericksburg
By Counsel

___John A. Rife_____________
John A. Rife (VSB No. 45805)
Taxing Authority Consulting Services, P.C.
P.O. Box 31800
Henrico, Virginia 23294-1800

24a
Phone: (804) 545-2500
Fax: (804) 525-2378
and
Kathleen Dooley (VSB No. 25725)
Fredericksburg City Attorney
600 Caroline Street
Fredericksburg, Virginia 22401
Counsel for the City of Fredericksburg

25a
CERTIFICATE OF SERVICE
I hereby certify that on this _9th_ day of January,
2020, I caused a true and accurate copy of the foregoing to be forwarded via fax and regular US mail, postage prepaid, first class, as follows:
T. Wayne Biggs, Esq.
Dycio & Biggs
10533 Main Street
Fairfax, Virginia 22032
Counsel for the Trustees of the
New Life in Christ Church
Robert M. Byrne, Esq.
10619 Jones Street, 3rd Floor
Fairfax, Virginia 22030
Counsel for the Trustees of the
New Life in Christ Church

_

John A. Rife______
John A. Rife, Esq

26a
John A. Rife
From:
Johnathan D. Middleton <jdmiddleton@fredericksburgva.gov>
Sent:

Monday, August 21, 2017 4:35 PM

To:

jwhitman11@aol.com’

Subject: Note from Fburg Real Estate Dept re:
Franklin St. Property
Jimmy —
I apologize for the delay in getting an answer regarding tax exempt status for your church’s new acquisition on Franklin St. Wanted to let you know I’m still
on the case and should have this wrapped up soon.
I just did a little research and have found that In the
event we obtain approval for the home’s tax exempt
status, exemption begins from the date of purchase rather than date of approval.
Let me know if you have any questions and thanks so
much for your patience!
Johnathan D. Middleton
Real Estate Department
City of Fredericksburg
(540)372-1207
From: Johnathan D. Middleton
Sent: Thursday, August 10, 2017 10:06 AM
To: ‘jwhitman11@aol.com’
Subject: Note from Fburg Real Estate Dept re:
Franklin St. Property

27a
Jimmy—
Just a quick note to let you know I haven’t forgotten
about your query regarding taxes and the new Franklin St. home. We have inquired with the city attorney’s team to ensure we pass on the correct answer—
I will let you know what I find out as soon as the information is available, thanks!
Johnathan D. Middleton
Real Estate Department
Office of the Commissioner of the Revenue
City of Fredericksburg
(540)372-1207

28a
KATHLEEN DOOLEY
CITY ATTORNEY
ROB ECKSTROM
ASSISTANT CITY ATTORNEY

601 CAROLINE STREET,
SUITE 200B
P.O. BOX 7447
FREDERICKSBURG, VA 22401
540-372-1020

December 7, 2018
Robert M. Byrne
10619 Jones Street
Third Floor
Fairfax, Virginia 22030
Re: New Life in Christ Church
1708 Franklin Street, Fredericksburg Virginia
22401
Dear Mr. Byrne:
By letter dated November 19, 2018 you requested that
the City designate the residential property located at
1708 Franklin Street as tax exempt, retroactive to the
date the church purchased the property. You requested that the City refund $5,718 in taxes paid, plus
interest, and that the matter be handled in an expedited manner. New Life in Christ Church has complained that it has spent 18 months trying to get an
explanation of the City’s position. Finally, you advised that you would have to file a declaratory judgment action against the City if we failed to respond in
writing.
So first, let me acknowledge that this written response is coming three weeks later, and I appreciate
your forbearance. Your letter landed at a particularly
busy time, and I appreciate the extra week to respond.

29a
I did feel that it was important for you to receive our
written response before proceeding to court.
Facts:
The following summary of the situation is based on
conversations between New Life in Christ Church and
the Commissioner of Revenue and the members of her
real estate department. They met several times in
August and September of 2017. In addition, this summary is based on both official records and publicly
available information.
The facts are important to the application of Virginia
Constitution Article X § 6 and Code of Virginia § 58.13606, which implements the Constitutional tax exemption classification. I believe that upon further examination of both the Constitutional provision and
the statute, you will at least understand why the City
believes that the facts are important to the application
of the tax exemption law. If you believe there is a material error in the following summary, then we would
appreciate receiving better information in writing.
•

The property.

The property located at 1708 Franklin Street was acquired by the Trustees of New Life in Christ Church
by deed dated June 30, 2017, recorded as Instrument
#170001590 in the land records of the Fredericksburg
Circuit Court Clerk. The Trustees granted a Deed of
Trust to Union Service Corporation of even date, recorded as Instrument #170001591; and an Assignment
of Rents to Union Bank & Trust, also dated June 30,
2017, recorded as Instrument #170001592.
The City’s Geographic Information System (GIS) reports the property as a 10,621 square foot lot with a

30a
1.7 story, 2,942 square foot dwelling. The house is
listed as having 4 bedrooms and 3 bathrooms. The
Commissioner’s real estate assessment data lists the
house has having two units.
In response to notice of the Assignment of Rents, the
Commissioner of Revenue mailed the Trustees a letter
dated August 1, 2017 enclosing the City’s landlord license and asked the Church to send the completed application and payment of the landlord license fee. The
Commissioner’s file copy of the letter includes a handwritten note of the response by Jimmy Whitman on
behalf of the Church, “Location to be used as free lodging for missionaries and other church personnel.”
Thus, he contended that the house is not a rental and
that no landlord license fee was owed. The Church
has never registered as a landlord with the Commissioner. The claim that the house is not rented is at
odds with the Assignment of Rents to Union Bank, but
the Commissioner did not pursue the matter further,
and there may be some simple explanation.
Mr. Tom Worman met with the Real Estate staff and
Commissioner in August and September of 2017 to
discuss the claim of tax exemption. He informed them
that the house was the residence of a married couple
who are active in New Life in Christ’s college ministry
program. According to Mr. Worman, the husband
worked full-time outside of the church and had begun
seminary courses to become an ordained minister.
The remainder of his time was dedicated to ministering to the students of University of Mary Washington.
The wife at that time worked full-time for the church,
but is not eligible for seminary or ordination. The
Commissioner asked for a statement of the use of the
residence in writing, but did not receive one.

31a
Your letter relates that the property is owned by New
Life in Christ Church “and is occupied by a paid minister of the church.”
• New Life in Christ Church; college ministers.
New Life in Christ Church is located at 11925 Burgess
Lane, in Spotsylvania County. The Church’s website
includes a list of church “leaders,” which includes Senior Pastor Douglas Kittredge, Associate Pastor Sean
Whitenack, and Assistant Pastor Sam Capitano.
In addition, the website lists over 30 church ministries, including the College Ministry led by Josh & Anacari Storms, the residents of 1708 Franklin Street.
The purpose of this ministry is outreach to students
from University of Mary Washington, Germanna
Community College, and “a few other schools.” Other
listed ministries include the Christian Service Brigade, Baseball, Care Groups, Director of Child Protection, Vacation Bible School, Nursery, Sunday School,
Thanksgiving Day Ministry, and more.
The biographical information provided for the Storms
on the Church’s website relates that Josh works as a
Design Specialist for a local Christian-owned engineering company, and also free-lances for local ministries and businesses. Anacari is a case manager for
Micah Ecumenical ministries and is responsible for
assisting recently housed homeless people in the city
of Fredericksburg.
Josh’s website, joshuastorms.com, says “I am a
graphic designer and business development team
member working full time for a DoD contracting company, as well as freelancing on the side. I have an
extensive client base in the state of Virginia, 5+ years

32a
experience working with DoD and military contractors, and have worked with several overseas clients as
well. In my free time I enjoy supporting local and international ministries with my design talents, and
sharpening my skills in other areas like sketching,
physical design projects, and hand lettering. I also
teach classes in both traditional art and Adobe Software . . .” He also speaks of his joy of traveling — “I
enjoy travel most when it’s with a purpose — specifically, missions work.”
Commissioner of the Revenue’s decision.
In 2017, the City Commissioner of the Revenue declined to classify 1708 Franklin Street as tax exempt,
on the grounds that it is not exclusively occupied for
the residence of the minister of New Life in Christ
Church.
Issue:
Is 1708 Franklin Street eligible for classification as
exempt from real estate taxes as the residence of the
minister of New Life in Christ Church?
Your letter stated that the City is relying upon two
Attorney General Opinions in support of its position—
opinions 73-74 Va. AG 358 and 67-68 Va. AG 266.
This is not correct, although I did mention these opinions on the phone with you, when I pulled up the digital file. I did not mean to imply that the City relied
on either opinion, and I apologize for the misunderstanding. Rather, the City is relying on Article X §§1
and 6 of the Constitution of Virginia and Code of Virginia § 58.1-3606, discussed below.

33a
Law:
The Commissioner’s decision was based on the Constitution of Virginia and the Virginia Code.
•

1971 Constitution of Virginia.

The 1971 Constitution of Virginia, Article X § 1 requires that all property shall be taxed except as expressly exempted by later provisions. It also authorizes the General Assembly to define and classify taxable subjects.
Article X, § 6(a)(2) exempts from state and local taxation: “Real estate and personal property owned and
exclusively occupied or used by churches or religious
bodies for religious worship or for the residences of
their ministers.”
The language in this section does use the plural form,
as pointed out in your letter. However, it uses the plural form for both “churches” and “residences” of their
“ministers.” The Constitutional provision applies to
churches throughout the Commonwealth, so the use
of the plural for both churches and their ministers
makes sense in this context. Thus, I disagree with
your primary contention that it is not possible to read
the Constitutional language in any other way but to
require the classification of the residences of all ministers of a church as tax exempt.
Article X § 6 also contains two other relevant subsections. Subsection 6(c) provides that “[e]xcept as to
property of the Commonwealth, the General Assembly by general law may restrict or condition, in whole
or in part, but not extend, any of all of the above exemptions.”
And subsection 6(f) provides that
“[e]xemptions of property from taxation as established

34a
or authorized hereby shall be strictly construed; provided, however, that all property exempt from taxation on the effective date of this section shall continue
to be exempt until otherwise provided by the General
Assembly as herein set forth.”
The requirement that tax exemptions be strictly construed is in contrast to the previous rule of statutory
construction, which required that tax exemptions under the 1902 Constitution be liberally construed.
Post-1971, constitutional and statutory exemptions
are to be strictly construed against a taxpayer claiming an exemption.
•

Code of Virginia.

Code of Virginia § 58.1-3606(A)(2) implements Article
X, § 6(a)(2) of the 1971 Constitution, as authorized in
Article X, § 6(c). It exempts from taxation “[r]eal and
personal property owned by churches or religious bodies, including (i) an incorporated church or religious
body and (ii) a corporation mentioned in section 5716.1, and exclusively used for religious worship or for
the residence of the minister of any church or religious
body, and such additional adjacent land reasonably
necessary for the convenient use of any such property.”
In short, in codifying the Constitutional tax exemption, the legislature used the singular form of “residence,” “minister,” and “church.” Presumably, the legislature’s choice to refer to the minister of a church
instead of ministers of a church, was intentional. The
statute simply takes the general, statewide rule
stated in the Constitution and restates it for application in individual cases. Article X § 6(c) permitted the

35a
General Assembly to restrict or condition any of the
Constitutional exemptions.
•

Strict construction.

As mentioned above, the 1971 Constitution included
for the first time a rule of strict construction with respect to tax exemptions. Prior to the adoption of the
1971 Constitution, § 168 of the 1902 Constitution,
providing for exemptions from taxation, had been liberally construed. Article X § 6(f) of the 1971 Constitution, however, reversed the former rule and requires
a general rule of strict construction of exemptions
from taxation. City of Portsmouth v. Portsmouth
Catholic Elementary School PTA, 217 Va. 199 (1976).
The general rule is that an exemption from taxation
is the exception and provisions exempting property
from taxation must be strictly construed. The strict
construction [of §58.1-3650] means that entitlement
to exemptions must appear clearly from the statutory
provisions relied upon. If there is any doubt concerning the exemption, the doubt must be resolved against
the party claiming the exemption. Virginia Baptist
Homes, Inc. v. Botetourt County, 276 Va. 656, 668
(2008).
• “The residence of the minister of any
church.”
I have not found any post-1971 authoritative construction of this phrase. But the first thing that is
clear to me is that it does not, on its face, exempt all
residences of all ministers of a church. Under the former rule of liberal construction, construing this exemption under the 1902 Constitution, the Virginia Supreme Court held that the exemption was not limited
to a single residence per church or religious body. “It

36a
is by no means clear that it was the intent of the constitutional revisors of 1902 and of the General Assembly to restrict the tax exemption to the residence of
only one minister for each church or religious body.”
Cudlipp v. City of Richmond, 211 Va. 712 (1971).
However, the extension of the exemption extended
only slightly in this case.
In Cudlipp, the Virginia Supreme Court held that
property held by the Trustees of the Protestant Episcopal Diocese of Virginia, provided as a residence for
the Bishop Coadjutor of the Diocese, was entitled to
tax exemption. In so doing, it overruled the trial
court’s ruling that the Bishop, but not the Bishop Coadjutor, was “the minister” whose residence was tax
exempt. In so ruling, the Court found that the Bishop
Coadjutor “is subordinate to the Bishop who is the ecclesiastical head of the Diocese.” However, the Bishop
Coadjutor “has full authority over all missionary and
aided churches in the Diocese so that technically the
Coadjutor is the Bishop over any church that is an
aided church . . . In his area of responsibility he is ‘the
final authority.’”
The Episcopal Church’s website describes the post of
Bishop Coadjutor today as “Assistant bishop with the
right of succession upon the resignation of the diocesan bishop. Before a bishop coadjutor is elected, the
diocesan bishop must consent to such an election and
state the duties which will be assigned to the bishop
coadjutor when duly ordained and consecrated.”1 The
Episcopal Diocese of Texas describes the Bishop Coadjutor as “A bishop elected to succeed the Diocesan
1

An Episcopal Dictionary of the Church, accessed December
7, 2018.

37a
Bishop [the primary bishop of a diocese.] An ordained
person consecrated to become the next bishop of a diocese when the diocesan bishop retires; when the
bishop retires or resigns, the Co-adjutor becomes the
Diocesan and the term Co-adjutor is dropped.”2
Conclusion.
I hope you will agree that the question of classification
requires more than a bare assertion that “a paid minister” of a church resides in property owned by the
church. The Commissioner and her staff attempted to
explain this to Mr. Worman and to seek out any additional information that might have changed her decision. Based on the information available to me, and
upon a thorough review of the law, I still believe the
Commissioner made the right decision with respect to
the classification of this property as taxable, and not
tax exempt.
It may continue to be the intention of the Constitution
and the statute to reach more than a single residence
for any church, as per the example of the Bishop and
the Bishop Coadjutor. A court may so rule. But I do
not believe that the statute can fairly be construed to
reach the residences of the many people, ordained or
non-ordained, who, on a paid or volunteer basis, devote a portion of their time to the good work of the
church.
It is truly admirable that so many people participate
in New Life in Christ Church and its ministries and
activities. We mean no disrespect to any person who
serves a church in this way. But the general rule is
that all property is taxable, and 1708 Franklin Street
2

The Episcopal Diocese of Texas, accessed December 7, 2018.

38a
does not fit within the exemption provided in Article
X § 6(a)(2) or § 58.1-3606(A)(2).
Given the Constitutional and statutory provisions discussed above, I must decline to advise the Commissioner of Revenue to classify the house at 1708 Franklin as tax exempt as the residence of the minister of
New Life in Christ Church. I hope that New Life in
Christ will reconsider its interest in a declaratory
judgment action. If you have any questions or additional information, I encourage you to call or write.
Sincerely,
Kathleen Dooley
Kathleen Dooley
City Attorney
cc: Lois Jacob, Commissioner of Revenue

39a
Appendix E
VIRGINIA:
IN THE CIRCUIT COURT OF THE CITY OF
FREDERICKSBURG
Case No. CL 19-395
TRUSTEES OF THE NEW LIFE
IN CHRIST CHURCH,
Plaintiffs,
v.
CITY OF FREDERICKSBURG,
Defendant.
DEFENDANT’S MOTION FOR SUMMARY
JUDGMENT
COMES NOW, the City of Fredericksburg (the
“City”), by counsel, and files its Motion for Summary
Judgment to the Plaintiffs’ application for real estate
tax exemption filed herein with this Honorable Court
and in so moving states as follows:
1. The Trustees of the New Life in Christ Church
(the “Church”) filed their Amended Complaint
in this matter alleging, inter alia, that the real
estate known as 1708 Franklin Street, Fredericksburg, Virginia 22407 (the “Property”), is
occupied by “the Minister” of the Church. See
Amended Complaint ¶5.
2. That upon information and belief, the City
denied this allegation in its timely filed An-

40a
swer and, having conducted discovery, discerned that the true residents of the Property
are Josh Storms and Anacari Storms. See
Plaintiffs’ Answers and Responses to the City
of Fredericksburg’s First Set of Written Interrogatories, Interrogatory #1, a copy of
which is attached in its entirety as Exhibit
“A”.
3. That the Church is organized under the rules
and regulations of the Presbyterian Church
in America and is governed by the Book of
Church Order. Id. #5.
4. Further, that the residents of the Property,
while listed as “Adjunct Staff Members...Youth Ministers...and Directors of College Outreach”, do not lead any sermons of the
Church and are not ordained as a Pastor, Associate Pastor, Assistant Pastor or Teaching
Elder. Id. #10, 11, and 12.
5. That while the residents of the Property proselytize to members of the college community
and they are considered Directors of the College Ministry of the Church, such designation
does not grant the residents minister status for
the purposes of tax exemption recognition under the Virginia Constitution and relevant
statutes.
6. Article X of the Constitution of Virginia exempts from taxation “real estate and personal
property owned and exclusively occupied or
used by churches or religious bodies for religious worship or for the residences of their

41a
ministers.” See Constitution of Virginia, Article X, Section 6(a)(2).
7. Article X, Section 6(c) further provides that
“except as to property of the Commonwealth,
the General Assembly by general law may restrict or condition, in whole or in part, but not
extend, any or all of the above exemptions.” In
response to the power contained in Article X,
Section 6(c), the General Assembly has enacted Code of Virginia § 58.1-3606(A)(2) which
provides, in relevant part, for property exempt
from taxation by classification by stating the
following to be exempt:
Real property and personal property
owned by churches or religious bodies,
including (i) an incorporated church or
religious body and (ii) a corporation
mentioned in § 57-16.1, and exclusively occupied or used for religious
worship or for the residence of the
minister of any church or religious body, and such additional adjacent land reasonably necessary for the
convenient use of any such property.
Emphasis Added.
8. The public policy in Virginia requires all property to be taxed and exemptions are the exception to the rule and must be strictly construed.
9. The burden of proof to show entitlement to
any such exemption rests upon the applicant.
10. That the General Assembly has specifically
limited application of tax exemptions to “the
minister” of the church and that Virginia

42a
Courts and the Attorney General have consistently opined that the minister of the
church implies one with authority or “the
head” of the church. See Memorandum in
Support.
11. That through pleadings and discovery, the
facts lay bare that the residents of the Property, while they may be diligent members of
the Church engaged in good works, do not
meet the residency requirement for the Property to qualify for the requested tax exemption.
THEREFORE, the City prays this Court
grant the City’s Motion for Summary Judgment
and dismiss this Complaint with prejudice, and
for such other relief as this Court may allow.
Respectfully submitted,
CITY OF FREDERICKSBURG, VIRGINIA,
By Counsel

__John A. Rife__
John A. Rife, Esq. (VSB No. 45805)
Taxing Authority Consulting Services, PC
P.O. Box 31800
Henrico, Virginia 23294-1800
Phone: (804) 545-2500
Facsimile: (804) 545-2378

43a
And
Kathleen Dooley (VSB No. 25725)
Fredericksburg City Attorney
600 Caroline Street
Fredericksburg, Virginia 22401
Counsel for the City of Fredericksburg

44a
CERTIFICATE OF MAILING
I, the undersigned attorney, hereby certify that on
this the _9th_ day of _January_, 2020, a true copy of
the foregoing Motion for Summary Judgment was
mailed, postage prepaid, to the following persons:
T. Wayne Biggs, Esq.
Dycio & Biggs
10533 Main Street
Fairfax, Virginia 22032
Counsel for the Trustees of the
New Life in Christ Church
Robert M. Byrne, Esq.
10619 Jones Street, 3rd Floor
Fairfax, Virginia 22030
Counsel for the Trustees of the
New Life in Christ Church
_
John A. Rife______
Counsel for the City of
Fredericksburg

45a
Exhibit “A”
City’s Motion for Summary Judgment
VIRGINIA:
IN THE CIRCUIT COURT OF THE CITY OF
FREDERICKSBURG
Case No, CL 19-395
TRUSTEES OF THE NEW LIFE IN CHRIST
CHURCH,
Plaintiffs,
v.
CITY OF FREDERICKSBURG,
Defendant.
TRUSTEES OF THE NEW LIFE IN CHRIST
CHURCH ANSWERS AND RESPONSES TO
THE CITY OF FREDERICKSBURG’S FIRST
SET OF WRITTEN INTERROGATORIES
COMES NOW, the Trustees of the New Life in
Christ Church (“NLICC”), by counsel, and for its Answers and Responses in the City or Fredericksburg’s
First Set of Written Interrogatories states as follows:
INTERROGATORIES
INTERROGATORY 1
Fully identify the name, occupation, and contact
information, including telephone and email addresses, of the resident(s) occupying the Property
(hereinafter “Residents”).
ANSWER:
Josh Storms—jstorms743@gmail.com
540-287-6570

46a
Anacari Storms—anacariglobal@gmail.com-- 540273-4198. Both are Directors of College Outreach and
Youth Ministers for the New Life Church. Upon information and belief, Josh is also employed as a
graphics specialist.
INTERROGATORY 2
Identify any affiliation and official title each of the
Residents may have with the NLICC.
ANSWER: Both are Adjunct Staff Members, both are
members of the New Life Church, both are Youth Ministers, and both are Directors of College Outreach.
INTERROGATORY 3
Is one or more of the Residents a full-time employee of the NLICC? If so, please identify each fulltime employee by name and provide a description of
the employee’s regular duties with the NLICC.
ANSWER: No.
INTERROGATORY 4
How many sermons have the Residents preached
during the regular Sunday morning services at the
NLICC?
ANSWER: None.
INTERROGATORY 5
If the NLICC is governed by any established national denomination, please name that affiliation and
the describe the documents applicable to governance
of NLICC as a member of that denomination. For ex-

47a
ample, if the congregation is a member of the Presbyterian Church in America, it would appear that the
“Book of Church Order” would govern the congregation’s doctrines and practices. Please identify the denomination (if any) to which the NLICC is affiliated
and the governing document(s) that define the doctrines and practices of member congregations in that
denomination.
ANSWER: The NLICC is a member of the Presbyterian Church in America (“PCA”) and, regionally, is a
member of the James River Presbytery. The Book of
Church Order describes governance of members of the
PCA. The Westminster Confessions of Faith and
Longer and Shorter Catechisms describe our doctrinal
position.
INTERROGATORY 6
Do the Residents have other fill-time occupations
outside of the NLICC? If so, please list the occupations, titles, employers, and business contact information for the employers.
ANSWER: As stated, it is believed that Josh Storms
is employed as a graphics specialist.
INTERROGATORY 7
List all employees of the NLICC that provide regular sermons to the NLICC congregation during regular worship hours. Include name, title, contact information and dates of hire for each.
ANSWER: Douglas Kittredge is the Founding Pastor—540-786-4848—7/12/75-Present and Sean Whitenack is the Lead Pastor—540-786-4848—2/15/05—
Present.

48a
INTERROGATORY 8
What is the relationship between NLICC and the
James River Presbytery of the Presbyterian Church in
America?
ANSWER: NLICC is a member of the James River
Presbytery.
INTERROGATORY 9
Are any of the persons named in the webpage or
its attachments found at https://www.nlicc.org/pastortransition-plan/ residents of’ the Property? If so, describe the beginning date of their residency and the
terms under which they reside at the Property.
ANSWER: No.
INTERROGATORY 10
Do any of the persons who reside at the Property
serve as Pastor, Associate Pastor or Assistant Pastor
of the congregation? If so, describe the date of their
residency, the terms under which they reside at the
Property, and the date(s) when the person or persons
were designated as a Pastor, Associate Pastor or Assistant Pastor.
ANSWER: No.
INTERROGATORY 11
Does the doctrine and/or polity of the NLICC and the
denomination in which it is affiliated allow women to
be ordained as Pastor and to lead congregations?
ANSWER: No.
INTERROGATORY 12

49a
Are any of the Residents of the Property ordained
as teaching elders? If so, please name the Residents
who are teaching elders.
ANSWER: The Residents are not teaching elders.
I hereby swear and affirm under penalty of perjury that the foregoing is true and accurate to the best
of my information, knowledge and relief. The actual
wording of answers may be that of Plaintiff’s attorney.
Date:_______________

Signed:__________________
Name:___________________
Title:____________________

Respectfully submitted,
Trustees of the New Life
In Christ Church
By Counsel
_ T. Wayne Biggs _
T. Wayne Biggs, Esq.
Dycio & Biggs
10533 Main Street
Fairfax, Virginia 22032
Counsel for the Trustees of the
New Life in Christ Church
Robert M. Byrne, Esq.
10619 Jones Street, 3rd Floor
Fairfax, Virginia 22030
Counsel for the Trustees of the
New Life in Christ Church

50a
CERTIFICATE OF SERVICE
I hereby certify that on this _31_ day of _October_
2019, I caused a true and accurate copy of the foregoing to be forwarded via facsimile and regular US mail,
postage prepaid, first class, as follows:
John A. Rife, Esq. (VSB No. 45805)
Taxing Authority Consulting Services, PC
P.O. Box 31800
Henrico, Virginia 23294-1800
Phone: (804) 545-2500
Facsimile: (804) 545-2378
and
Kathleen Dooley (VSB No. 25725)
Fredericksburg City Attorney
600 Caroline Street
Fredericksburg, Virginia 22401
Counsel for the City of Fredericksburg
_ T. Wayne Biggs _
T. Wayne Biggs, Esq.

51a
VIRGINIA:
IN THE CIRCUIT COURT OF THE CITY OF
FREDERICKSBURG
Case No. CL 19-395
TRUSTEES OF THE NEW LIFE IN CHRIST
CHURCH,
Plaintiffs,
v.
CITY OF FREDERICKSBURG,
Defendant.
TRUSTEES OF THE NEW LIFE IN CHRIST
CHURCH RESPONSES TO THE CITY OF
FREDERICKSBURG’S FIRST REQUEST
FOR PRODUCTION OF DOCUMENTS
COMES NOW, the Trustees of the New Life in
Christ Church, by counsel, and files its Responses to
the First Request for Production of Documents of the
City of Fredericksburg and states as follows:
DOCUMENTS REQUESTED
1. Provide a copy of any lease agreement involving 1708 Franklin Street, Fredericksburg,
Virginia 22401 (the “Property”) with New Life
in Christ Church, (“NLICC”) and any other
party allowing use of the property.
RESPONSE: None.

52a
2. Provide a full copy of any minutes of any committee meeting wherein the lease or occupation of the Property was discussed or authorized.
RESPONSE: None insofar as there is no
lease. Plaintiff has located no minutes at this
time, but will supplement if responsive documents are located.
3. Provide copies of all communications, electronic or otherwise, between the Trustees,
Pastor, Associate Pastor, Josh Storms or Anacari Storms discussing the lease or occupation
of the Property.
RESPONSE: None insofar as there is no
lease. Plaintiff objects to the request as to “all
communications” as being overly broad and
unduly burdensome. Without waiving the objection, responsive documents are produced
herewith.
4. Provide a copy of any official documentation
indicating that the NLICC is affiliated with
the Presbyterian Church in American and the
James River Presbytery of said denomination.
RESPONSE: See letter dated November 13,
2014, produced herewith.
5. Provide a copy of any ordination credentials
for Josh Storms or Anacari Storms or any
other person deemed “a minister” who primarily resides at 1708 Franklin Street.
RESPONSE: There are no ordination credentials.

53a
Respectfully submitted,
Trustees of the New Life
In Christ Church
By Counsel
__T. Wayne Biggs___
T. Wayne Biggs, Esq.
Dycio & Biggs
10533 Main Street
Fairfax, Virginia 22032
Counsel for the Trustees of the
New Life in Christ Church
Robert M. Byrne, Esq.
10619 Jones Street, 3rd Floor
Fairfax, Virginia 22030
Counsel for the Trustees the
New Life in Christ Church

54a
CERTIFICATE OF SERVICE
I hereby certify that on this _31_ day of _October_
2019, I caused a true and accurate copy of the foregoing to be forwarded via facsimile and regular US mail,
postage prepaid, first class, as follows:
John A. Rife, Esq. (VSB No. 45805)
Taxing Authority Consulting Services, PC
P.O. Box 31800
Henrico, Virginia 23294-1800
Phone: (804) 545-2500
Facsimile: (804) 545-2378
and
Kathleen Dooley (VSB No. 25725)
Fredericksburg City Attorney
600 Caroline Street
Fredericksburg, Virginia 22401
Counsel for the City of Fredericksburg
__________________________________
T. Wayne Biggs, Esq.

55a
Presbyterian Church in America
Office of the Stated Clerk—
Administrative Committee
1700 North Brown Road, Suite 105
Lawrenceville, CA 50043.5143
Phone; 678-825-1000
Fax: 678-825-1001

Stated Clerk of the General Assembly
Dr. L. Roy Taylor
Business Administrator
The Reverend John W. Robertson

Please Note: Use EIN # 54-1205241 in all communications with the IRS.
November 13, 2014

To Whom It May Concern:
This is to confirm the status of New Life in Christ
Church, Fredricksburg, VA, as a church in good standing in the Presbyterian Church in America.
The Presbyterian Church in America is a denomination composed of more than 1700 churches and missions. New Life in Christ Church is a recognized
church of the denomination.
The denomination has received recognition from the
Internal Revenue Service as a tax-exempt organization. An application for group recognition by the IRS
of the presbyteries, churches, missions, committees
and agencies of the Presbyterian Church in America
(according to Revenue Procedure 80-27, 1980-1 CB
677) has been approved. A copy of the March 20, 2013,
IRS Letter is attached. New Life in Christ Church is
included in the group and is identified by the Employer Identification Number 54-1205241. The federal Group Exemption Number for the Presbyterian
Church in America is 8534.

56a
Respectfully,
John W. Robertson
John W. Robertson
Business Administrator
ajh

57a
EXHIBIT A

New Life in Christ Church
Douglas Kittredge: Senior Pastor
540-786-4848
NLICC@NLICC.org

JOB TITLE
Director of College Outreach
POSITION DESCRIPTION
The College Outreach Director builds a sustainable
college ministry that incorporates students from the
University of Mary Washington and Germanna Community College; connects students with the New Life
in Christ Church (NLICC) community, mission and vision; and maintains a home in which students meet to
study God’s word and enjoy Christian fellowship. The
College Outreach Director will provide leadership
over the ministry to New Life in Christ College Students through godly example, prayer, leadership development, collegiate community engagement, program management and administrative oversight. The
focus is to make disciples through an evangelistic and
discipleship ministry, personal discipleship, as well as
large and small group meetings.
This is a Missionary position as an Adjunct Staff
Member of NLICC.
SUMMARY OF RESPONSIBILITIES
Reports to the Session, NLICC, via the Associate Pastor;
Coordinate with the Associate Pastor of
NLICC to establish ministry goals and track
progress annually;

58a
Execute ministry vision and goals through Associate Director, supervising, as required,
those activities to achieve ministry goals;
Provide mentoring, coaching, discipleship to
Associate Director and each member of the college ministry, as required;
Provide Bible Study, Discipleship, and Fellowship at least through 1 regularly scheduled
weekly group setting in the home provided by
NLICC;
Oversee coordination with UMW Sponsor to
plan for and provide activities via the UMW
campus club;
Develop and submit an annual budget for consideration to assist building the Church’s fiscal year budget; submission is due March 31,
or as coordinated via the Associate Pastor of
NLICC;
Manage approved budget within set limits to
include any funds raised in support of Ministry activities;
Solicit donations in support of the College
Ministry activities to cover any expense that
exceeds the Church’s college ministry annual
budget limit;
Meet with the Associate Pastor of NLICC
monthly, or as scheduled, to review ministry
status and for spiritual refreshment/guidance,
coaching, and supervision;
Provide a monthly College Ministry monthly
report to the Session via the Associate Pastor,
or as directed;

59a
Annual continuing education at New Geneva
Theological Seminary of 4 credit hours per
year.
SALARY, BENEFITS & ALLOWANCES
Salary basis is $18,000/year
Cash salary is $6,000/year.
Housing provided is $12,000/year taxable fringe benefit,
Vacation benefit: 2 weeks per year.
Medical/Dental/Life insurance benefit: None.
Retirement benefit: None.
Allowances: None.
Source of Funds:
Total salary is contingent upon College
Outreach Director’s raised support and
those funds availability at time of payroll processing.
Total salary is $18,000 per year in 26 biweekly payments ($12,000 being taxed
as a fringe benefit not realized in actual
funds received but rather as a housing
benefit).
If adequate funds are not available for a
full paycheck during payroll processing,
the paycheck will be reduced in a way
consistent with the available support
funds raised. During the next pay period, if sufficient funds are available,
NLICC will include the shortfall in that
paycheck to not exceed $18,000/annum.
Due to the $12,000 taxable fringe benefit
for housing, a balance consistent to the

60a
required taxes will be maintained in order to process payroll. Should sufficient
funds be raised in the amount of the annual taxable fringe benefit, that balance
will be earmarked for taxes to process
payroll.
In the case there are insufficient funds to
process pay, the pay stub will reflect the
housing benefit and taxes required for
such benefit received.

61a
ACCEPTED AND AGREED
If you accept this offer, your start date is July 1,
2017.
Clerk of Session

Candidate

Signature: _Sam Capitano_

Signature: _Josh
Storms_

Print Name : Sam Capitano

Print Name : Josh
Storms

Date: _07/18/17_

Date: _7-14-17_

Enclosure: (1) Memorandum on the Distribution of
Financial Support
Copy to:
1. New Hire
2. HR records
3. Treasurer/Book Keeper (Payroll)

62a
Memorandum on the Distribution of Financial
Support
The College Ministry at New Life in Christ Church is
entirely funded through the financial support raised
by its leaders for the ministry. All support will be
pooled into a single college ministry account that will
fund salaries and taxes associated with the positions.
As such, a prioritized order for fund disbursement will
be implemented to support these salaries.
During each payroll period, funds will be drawn from
a college ministry account in the following order:
1) Funds to pay for the taxable fringe benefit of
the housing; then
2) Funds to pay for the Associate Director of College Outreach’s salary to include the requisite
employer-side federal taxes; then
3) Funds to pay for the Director of College Outreach’s salary to include the requisite employer-side federal taxes.
In order listed above, each will be paid only upon the
full funding of the previous item.
Funds raised over and above the amount required to
provide for salary and benefits will accumulate in this
college ministry account. All funds present within the
account at the point of employment termination (either by direction or by mutual agreement) will remain
within the college ministry account at New Life in
Christ Church unless either of you are transferring directly to another missionary position associated with
a mission agency to which funds may be transferred.
This transaction will be reviewed and recommended

63a
by NLICC Missions’ Committee, subject to the approval of NLICC’s Session.
Date received: _7-14-17_
Signature:
Josh Storms: __Josh Storms__

64a

65a
VIRGINIA:
IN THE CIRCUIT COURT OF THE CITY OF
FREDERICKSBURG
Case No. CL 19-395
TRUSTEES OF THE NEW LIFE
IN CHRIST CHURCH,
Plaintiffs,
v.
CITY OF FREDERICKSBURG,
Defendant.
DEFENDANT’S MEMORANDUM OF LAW IN
SUPPORT OF
ITS MOTION FOR SUMMARY JUDGMENT
COMES NOW, the City of Fredericksburg (the
“City”), by counsel, and submits this Memorandum of
Law in support of its Motion for Summary Judgment
to this Honorable Court.
I.

INTRODUCTION

Plaintiffs in this action challenge the assessment
of real estate taxes against the residential property located at 1708 Franklin Street, Fredericksburg, Virginia, 22407 (the “Property”), claiming entitlement to
an exemption of taxes pursuant to the Virginia Constitution and claiming the residents of the Property to
be “the Minister” of the New Life in Christ Church
(the “Church”). See Plaintiffs’ Amended Complaint
¶5. The Plaintiffs fail to specifically name the residents of the Property in their Complaint or Amended
Complaint, however, in responding to discovery the

66a
Plaintiffs state that Josh Storms and Anacari Storms
reside in the home and are part-time employees of the
Church and head the Church’s endeavors in college
ministry.
According to the Plaintiffs’ answers to the City’s
interrogatories, the Church is organized as a member
of the Presbyterian Church in America and specifically the James River Presbytery of said organization
and is governed by the Book of Church Order. It is
undisputed that neither Josh Storms nor Anacari
Storms have obtained the formal status of minister or
teaching elder as recognized by the Church’s governing documents.
For the reasons stated below, the residency requirement for tax exemption under the laws of the
Commonwealth of Virginia is not met to qualify the
Property for a tax exemption.
II. APPLICATION OF LAW
Exemption from taxation requires ownership,
use and residency tests be met.
The Virginia Constitution provides for the relevant tax exemption sought in this suit. It allows an
exemption for the “[r]eal estate and personal property
owned and exclusively occupied or used by churches
or religious bodies for religious worship or for the residences of their ministers.” Virginia Constitution, Article X, Section 6(a)(2). Section 6(c) of the same Article
provides that “...the General Assembly by general law
may restrict or condition, in whole or in part, but not
extend, any or all of the above exemptions.” The applicable limitations to such exemption were enacted in
Virginia Code § 58.1-3606(A)(2) as follows:

67a
Real property and personal property
owned by churches or religious bodies, including (i) an incorporated church or religious body and (ii) a corporation mentioned in § 57-16.1, and exclusively occupied or used for religious worship or for the
residence of the minister of any church or
religious body, and such additional adjacent land reasonably necessary for the convenient use of any such property. Real
property exclusively used for religious
worship shall also include the following:
(a) property used for outdoor worship activities; (b) property used for ancillary and
accessory purposes as allowed under the
local zoning ordinance, the dominant purpose of which is to support or augment the
principal religious worship use; and
(c) property used as required by federal,
state, or local law.
Pursuant to the authority of Section 6(c) in Article
X of the Virginia Constitution, the General Assembly
has established the real estate and personal property
tax exemption tests requiring an ownership, use and,
in this particular case, a residency test. The City concedes the Church’s ownership of the residence and its
use as a residence, satisfying those portions of the test.
However, the facts presented in this case fail to satisfy
the residency component of the test.
In Virginia, the general policy is to tax all property. DKM Richmond Associates, LP v. City of Richmond, 249 VA 401, 407, 457 SE2d 76, 80 (1995). “‘Exemptions of property from taxation...shall be strictly
construed’ against the taxpayer.” Id. (quoting VA

68a
Const. art. X, § 6(f)). The DKM Court states that
“[u]nder this rule, exemption from taxation is the exception, and any doubt is resolved against the one
claiming the exemption.” Id. (citing Westminster Canterbury of Hampton Roads, Inc. v. City of Virginia
Beach, 238 VA 493, 501, 385 S.E.2d 561, 565 (1989)).
“And, the taxpayer has the burden to establish that it
comes within the terms of the exemption.” Id. (citing
Commonwealth v. Manzer, 207 VA 996, 1000, 154
S.E.2d 185, 189 (1967)).
The Property is not occupied by “the minister”
and therefore fails to meet the residency test required to qualify for the tax exemption.
While the test for residency is fact-specific,
through discovery, the City has established the residents of the Property. Contrary to the allegation in
Plaintiffs’ Amended Complaint Paragraph 5, the
Property is not occupied by “the Minister” of the
Church, but rather is occupied by Josh Storms and
Anacari Storms. Josh Storms and Anacari Storms are
employed part-time by the Church to spearhead the
College Ministry for the Church. As a part of the compensation, the Property is made available as a residence to the Storms and is reported on their W-2 as a
valued benefit for their compensation. (See Motion for
Summary Judgment Exhibit “A”). According to the
Plaintiffs, neither Josh Storms nor Anacari Storms
are ordained ministers or teaching elders of the
Church. While they may be established by the local
church with responsibility for a portion of the
Church’s outreach, this responsibility does not fall
within the parameters outlined by the Virginia Constitution and its governing statutes.

69a
The Church states on its website that, “The Senior
Pastor together with the Associate Pastor and Ruling
Elders form the Session (or governing body) of the
church who are responsible for caring for the spiritual
needs of the congregation.” New Life in Christ
Church. (2019). Officers. Retrieved December 29,
2019, from “https://www.nlicc.org/about/officers/”.
Neither of the residents of the property are a senior or
associate pastor of the Church. Rather, they are employed part-time as a part of the Church’s college outreach ministry. While the Church may have informally designated the Storms as “ministers”, this does
not make them “the minister” for the Church in terms
of seeking the exemption from real estate taxes.
While the Constitutional exemption and its statutory limitations differ in the plural versus the singular use of the term “minister”, this Court need not
delve into such distinction. Rather, it need merely to
look to the import of the term “the minister.” That
usage signifies more than a simple congregational
designation. Virginia Courts have opined that “the
minister” refers to “the head of a religious congregation, society or order. He is set apart as the leader.
He is the person elected or selected in accordance with
the ritual, bylaws or discipline of the order.” Cramer
v. Commonwealth, 214 VA 561, 567, 202 S.E.2d 911,
915 (1974).
The Cramer Court contended with the rights of
“ministers” of a congregation to conduct marital ceremonies for members of the Universal Life Church,
Inc., under Virginia Code § 20-23. The Court noted
that one of the central tenets of the church encouraged
all members to become ministers and every member

70a
was eligible for immediate ordination into the ministry. See id at 567, 915. The Cramer Court was required therefore to devise the General Assembly’s intent in determining what the qualification of a minister would be in allowing the privilege to conduct marital rites. The Court states that, “[a] church which
consists of all ministers, and in which all new converts
can become instant ministers, in fact has no ‘minister’
within the contemplation of Code §20-23.” Id at 56667, 915.
The Cramer Court’s reading of the General Assembly’s intent was made during a period where the
tax exemptions required a liberal construction. After
the amended Constitution came into effect, in 1971,
however, the exemptions from taxation are required
to be strictly construed by the terms of the Virginia
Constitution. See VA Const. art. X, § 6(f). Additionally, the Cramer Court contended with church governing documents that presumably gave broad ministerial grants to its members. The New Life in Christ
Church, in contrast, is affiliated with, and is a member of, the Presbyterian Church in America and the
James River Presbytery of said organization. As such,
its own definition of its ministers is rooted in the governing document of the Presbyterian Church in America, “the Book of Church Order”. Section 22:1 in Chapter 22 of the Book of Church Order states that “the
various pastoral relations are pastor, associate pastor,
and assistant pastor.” See Table of References to
Memorandum of Law.
The Plaintiffs affirmed in their discovery responses that the Church is governed by the Book of
Church Order of the Presbyterian Church in America.
The Book of Church Order utilizes the term “minister”

71a
in contexts that make it clear that the term refers to
a duly ordained person with specific leadership duties.
For example, Chapter 21 of the Book of Church Order
is entitled “The Ordination and Installation of Ministers” and Chapter 34 of the Book of Church Order is
entitled “Special Rules Pertaining to Process Against
a Minister”. Both of these chapters speak only of ordained ministers of the denomination. Chapter 58 of
said book regarding “the administration of the Lord’s
Supper” and Chapter 56 of said book regarding “the
administration of baptism” also use the term “minister” in contexts that make it clear that the word refers
to properly ordained individuals.
Clearly, by its own definitions the Church has limited its pastoral leadership to specific individuals,
none of which occupy the Property which the Church
seeks to have exempted from taxation.
The Church lists two individuals living at the
Property it seeks to exempt from taxation as being involved in “college ministries.” But in many religious
traditions it is possible to “minister” without being
“the minister”; and certainly without being “members
of a narrow class . . . intended for the leaders of the
various religious faiths and not for the members generally”. Cramer at 569, 917.
Indeed, Anacari Storms, the female “college minister” is not permitted in accordance with the polity
and policy of the Presbyterian Church in America to
be an ordained minister or to serve on the administrative board of the local congregation (the “Session”) as
a “ruling elder”. By the denomination’s own doctrines
and discipline, she can “minister” only as an un-ordained lay person. Josh Storms, the other resident of

72a
the Property, is not prohibited by reason of his gender
from becoming a minister in Presbyterian Church in
America, but, by admission through discovery, the
Plaintiffs concede he has not been ordained as a minister. He certainly is not the “Lead Pastor”, “Associate
Pastor” or “Assistant Pastor” listed as the leaders of
the Church on the Church website. Indeed, Josh’s
personal website and Linkedin (Linkedin.com) profile
list him as being employed full time by a private employer not related to the Church.
The courts and administrative rulings in Virginia
have outlined what is needed to be considered “the
minister” for the purposes of local tax exemptions and
in all cases have pointed to one who represents a leadership and central role to the church and its congregation. In Cudlipp v. City of Richmond, 211 VA 712,
180 SE2d 525 (1971) the Supreme Court of Appeals of
Virginia allowed the Episcopal Diocese of Virginia to
claim a tax exemption for the residence of its bishop
coadjutor. In so doing, the Court recognized that
while the Coadjutor was subordinate to the Bishop, he
had “full authority” over all missionary and aided
churches within the Diocese. His level of responsibility as the head or “full authority” allowed for the qualification of the tax exemption.1 While Cudlipp was decided at a time that exemptions were afforded a liberal
interpretation, the Court’s analysis is useful in ferreting out the statutory parameters for ministers.

1

Also at issue in Cudlipp is the application’s allowance when
one residence was already tax exempt for the church, which is
not relevant to the particular set of facts in the matter at bar.

73a
Additionally, in a 1976 opinion addressed to The
Honorable Sam T. Barfield, Commissioner of the Revenue for the City of Norfolk, the Virginia Attorney
General opined that a full time minister of music who
often lead services and who filled in and “gave the
message” for eight months while the church was without a minister could qualify as a “minister” for the
purposes of the exemption contained in the constitution. 1976-77 Va. Op. Atty. Gen. 276 (1976).
But, again, the Attorney General used the “liberal interpretation” standard which is not applicable in the
matter of the New Life in Christ Church.
It is clear that whenever the Virginia Supreme
Court has previously had occasion to interpret the
word “minister” it has defined the term in a legal
sense as describing “members of a narrow class . . .
intended for the leaders of the various religious faiths
and not for the members generally.” Cramer at 569,
917. A person engaged in “college ministry” but lacking credentials to serve as a pastor or leader within a
congregation may indeed be engaged in ministry and
good works, but he is still a layperson.
Josh Storms is not a minister in accordance with
the rules and regulations of his chosen denomination,
much less “the minister” leading the congregation,
thus, the necessary prerequisite for declaring the
Property as tax exempt does not exist. Because Anacari Storms is not allowed by the rules of her denomination to become a minister, she also cannot be “the
minister” for the Church.
The Church does not classify Josh or Anacari
Storms as “ministers” for the purpose of federal
taxation.

74a
Through discovery, the Plaintiffs provided their
employment confirmation letter to Josh Storms, as
well as the Storms’ W-2, which delineates the Property as a value-added benefit of employment. The
United States tax code permits residency allowances
for ministers to be exempt from Federal income taxation. The Storms’ W-2 indicates that the Church withholds taxes on the housing allowance as a part of its
compensation. 26 USC § 107 specifically excludes
housing of ministers from income taxation and withholding requirements. Therefore, for Federal tax purposes, the Church does not consider the residence to
be occupied by a minister of the Church.
III. CONCLUSION
The Virginia Constitution and statutes that define those exemption allowances govern the Court’s
determination whether one qualifies for an exemption. The particular set of facts presented this Court
through pleadings and discovery necessitate this
Court to find that the Property in which exemption is
claimed fails the residency test of the religious residence exemption qualification. The Property is not, in
the words of the statute, utilized “for the residence of
the minster” of the congregation that owns the Property and, therefore, is not exempt from the City’s real
estate taxation.
Respectfully Submitted,
CITY OF
FREDERICKSBURG,
By Counsel

75a
______John A. Rife
_
John A. Rife Esq. (VSB No 45805)
Taxing Authority Consulting Services, PC
P. O Box 31800
Henrico, Virginia 23294-1800
Phone: (804) 545-2500
Facsimile: (804) 545-2378
And
Kathleen Dooley (VSB No. 25725)
Fredericksburg City Attorney
600 Caroline Street
Fredericksburg, Virginia 22401
Counsel for the City of Fredericksburg

76a
CERTIFICATE OF MAILING
I, the undersigned attorney, hereby certify that on
this the _9th_ day of _January_, 2020, a true copy of
the foregoing Memorandum of Law in Support of Motion for Summary Judgment was mailed, postage prepaid, to the following persons:
T. Wayne Biggs, Esq.
Dycio & Biggs
10533 Main Street
Fairfax, Virginia 22032
Counsel for the Trustees of the
New Life in Christ Church
Robert M. Byrne, Esq.
10619 Jones Street, 3rd Floor
Fairfax, Virginia 22030
Counsel for the Trustees of
the New Life in Christ Church
_____John A. Rife____
Counsel for the City of
Fredericksburg

77a
TABLE OF REFERENCES
1. Virginia Constitution, Article X, Section 6.
2. Virginia Code § 58.1-3606.
3. DKM Richmond _Associates, LP v. City of
Richmond, 249 VA 401, 457 SE2d 76 (1995).
4. Westminster-Canterbury of Hampton Roads,
Inc., v. City of Virginia Beach, 238 VA 493,
385 SE2d 561 (1989).
5. Commonwealth v. Manzer, 207 VA 996, 154
SE2d 185 (1967).
6. New Life in Christ Church. (2019). Officers.
Retrieved December 29, 2019, from
“https://www.nlicc.org/about/officers/”.
7. Cramer v. Commonwealth, 214 VA 561, 202
SE2d 911 (1974).
8. The Book of Church Order of the Presbyterian
Church in America, Chapter 22.
9. Cudlipp v. City of Richmond, 211 VA 712, 180
SE2d 525 (1971).
10. 1976-77 Va. Op. Atty. Gen. 276 (1976).
11. 26 USC § 107.

78a
Appendix F
VIRGINIA:
IN THE CIRCUIT COURT
OF THE CITY OF FREDERICKSBURG
Case No. CL 19-395
TRUSTEES OF THE NEW LIFE
IN CHRIST CHURCH,
Plaintiffs,
v.
CITY OF FREDERICKSBURG,
Defendant.
TRUSTEES OF THE NEW LIFE IN CHRIST
CHURCH’S OPPOSITION TO THE
DEFENDANT’S MOTION FOR SUMMARY
JUDGMENT
COMES NOW, the Trustees of the New Life in
Christ Church (“New Life” or “New Life Church”), by
counsel, and files its Opposition to the Defendant’s
Motion for Summary Judgment filed by the City of
Fredericksburg (“City”) and states as follows:
I.

INTRODUCTION

New Life Church has filed this action pursuant to
§ 58.1-3984 Va. Code seeking review of the City’s determination that certain property located at 1708
Franklin Street in the City of Fredericksburg (“Property”) is not entitled to the tax exemption provided by
Article X, Section 6(a)(2) of the Virginia Constitution
and § 58.1-3606(A)(2)(ii) (“Tax Exemption Provi-

79a
sions”). The property is currently occupied by individuals employed by the Church as Youth Ministers. The
City’s position seems to be that unless property is occupied by a “minister” meeting certain criteria that
the City has deemed important, then a church cannot
assert that such an individual is a minister for purposes of the Tax Exemption Provisions of the Virginia
Constitution and attendant statutes. Because the
government may not, as a matter of federal constitutional law and Virginia law, dictate to a church who
may be a “minister,” the City’s motion must fail. Additionally, insofar as the assertion of the New Life
Church is that New Life Church’s sincere belief that
the Youth Ministers are “legitimate” ministers, such
belief is a question of intent and credibility which are
questions of fact for the fact finder and not properly
resolved on summary judgment.
II. SUMMARY JUDGMENT STANDARD
Under Virginia law, summary judgment is a
“drastic remedy” which is available only where there
are no “material facts genuinely in dispute.” Slone v.
General Motors Corp., 249 Va. 520, 522 (1995) (internal citations omitted). Ordinarily, facts developed
through discovery should not supplant the taking of
evidence at a trial. Carson v. LeBalanc, 245 Va. 135,
137 (1993). The court is obliged to view the facts in
the light most favorable to the non-moving party and
to grant all reasonable inferences in favor of such nonmoving party. Bloodworth v. Ellis, 221 Va. 18, 23,
(1980). Further, while a moving party, absent agreement and certain circumstances not applicable here,
is prohibited from using affidavits and discovery depositions in support of its motion, the opposition party
is not similarly restricted in supporting its opposition.

80a
Lloyd v. Kime, 275 Va. 98, 107 (1988); see also, Rule
3:20 Rules of Supreme Court.
III. MATERIAL FACTS IN DISPUTE
The City moving papers do not contain a specific
section listing the material facts purportedly not in
dispute though it attaches interrogatory answers from
New Life Church. The City concedes any issues as to
the ownership and use of the Property but asserts that
a “minister” does not “reside” at the Property. The
Church asserts the following facts in support of its Opposition as set forth in the Affidavit of Thomas J.
Worman attached hereto as “Exhibit A.”
1. The Trustees of the New Life in Christ Church
are the record owners of real property located at 1708
Franklin Street in the City of Fredericksburg (“Property”) which is the subject of this litigation.
2. Two individuals known as Josh Storms and
Ancari Storms (husband and wife) currently reside at
the Property.
3. The Storms are employed by the New Life in
Christ Church as Youth Ministers and have been
since 2017.
4. Prior to beginning their work as Youth Ministers, the Storms received training relating to the
Church’s expectations, goals and standards for youth
ministry and had existing experience. Such training
and experience includes the fact that Josh Storms
grew up in the church as a teenager and was on the
youth group and was the president of the Youth Group
and then went off to college. He was part of a college
ministry for the 4 years he was at Virginia Tech.
Since graduation he has taken part time classes at

81a
New Geneva Seminary and he is under the direction
of the NLIC session and has been mentored by the assistant pastor. Anacari Storm grew up in the church
and did missionary work in Jordan for a year. She is
being trained by mentoring and on the job training,
and has a degree in theology. They are doing ministry
and are supervised by the session of NLIC. Now they
continue training in seminary classes and 2 CCEF
training conferences annually.
5. The Storms’ activities and responsibilities as
Youth Ministers is summarized in the attached “Exhibit A” under “Summary of Responsibilities.” In addition to those specific responsibilities, the Youth
Ministers are expected to establish and maintain a
ministry catering to college-aged men and women
which spreads the message of the New Life in Christ
Church to such young men and women.
6. The New Life in Christ Church views these
functions as essential, religious functions in that the
Church’s primary function is to spread its message of
salvation and redemption through the Christian faith.
The Youth Ministers function is also considered essential insofar as it is important to attract young
members who will hopefully be active members of the
Church for years to come.
7. The City’s arguments that a “minister” of a
church must be ordained or must be the person in
some leadership capacity does not comport with the
actual structure of the New Life in Christ Church and
misconstrues the Church hierarchy.
8. The ruling body of a church in the Presbyterian faith is called the Session. The Session of a particular church, such as New Life in Christ Church, is

82a
elected by the Church’s congregation. The Session is
the governing body of such church.
9. A church’s pastor (i.e. an ordained minister
authorized to deliver sermons) is a member of the Session. However, the pastor is but one member of the
Session and has but one vote.
10. The decision-making authority for a Presbyterian church (and, accordingly, for New Life in Christ
Church) rests with the Session. The pastoral minister
does not have autonomous authority over the New
Life in Christ Church.
11. While it is true that in order to deliver sermons to the congregation a person doing so must be
an “ordained” minister, there is nothing in the Book of
Church Order that prohibits a particular church from
hiring ministers to serve as messengers and teachers
of the faith.
12. In this respect, Section 12 of the Book of
Church Order provides each church rather broad authority to govern its own affairs which would include
the ability to hire ministers to cater to specialized
groups, such as youth.
IV. ARGUMENT
The First Amendment provides, in relevant part,
that “Congress shall make no law respecting an establishment of religion or prohibiting the free exercise
thereof.” U.S. Const. Amend. The First Amendment
is applicable to the several States by virtue of the 14th
Amendment. See generally, Lee v. Weisman, 505 U.S.
577 (1992). “The constitutional guarantees of religious freedom have no deeper roots than in Virginia,
where they originated, and nowhere have they been

83a
more scrupulously observed.” Reid v. Gholson, 229
Va. 179, 187 (1985) (internal citations omitted). The
City’s interpretation of the “requirements” to be a
minister of New Life Church and argument as to who
New Life may determine to be a “minister” would be a
violation of the First Amendment rights of New Life
and would unnecessarily require this court to delve
into questions of faith and doctrine.
In Hosanna-Tabor Evangelical Lutheran Church
Sch. V. EEOC, 565 US 171 (2011), the United States
Supreme Court held that the First Amendment and
the “ministerial exception” barred a discrimination
claim under the Americans With Disabilities Act filed
by a minister the church that fired her. Id. at 196. In
arriving at this decision, the Supreme Court noted
that “the freedom to select the clergy, where no improper methods of are proven . . . . is . . . part of the
free exercise of religion protected by the First Amendment again government interference.” Id. at 186 (internal citations omitted). Simply put, civil laws, in
that case, did not override a religious organization’s
right to determine who its ministers are notwithstanding that the organization’s actions may have
otherwise violated employment laws.
Significantly, three separate Justices in the Hosanna-Tabor case filed or joined concurring opinions
to specifically warn against adopting any specific
“test” to determine who qualifies as a “minister.” Justice Thomas wrote that, in his view, a “religious organization’s right to choose its ministers would be hollow if secular courts could second-guess the organization’s sincere determination that a given employee is
a ‘minister’ under the organization’s religious tenets.”
Id. at 197 (Thomas, concurring). Justice Alito, joined

84a
by Justice Kagan, expressed similar views and argued
that the concept of “formal ordination” or the use of
the term “minister” should not be dispositive of when
the ministerial exception applies and that “minister”
should apply to “any ‘employee’ who leads a religious
organization, conducts worship services or important
religious ceremonies or rituals or serves as a messenger or teacher of its faith.” Id. at 199 (Alito, concurring). Indeed, the Supreme Court has long recognized that it would be a “significant burden on a religious organization to require it, upon pain of substantial liability, to predict which of its activities a secular
court will consider religious.” Corporation of Presiding Bishop v. Amos, 483 U.S. 327, 336 (1987).
Virginia law is in conformance with the views and
rulings of the Supreme Court. As the Virginia Supreme Court has acknowledged, it is well established
that a civil court may neither “interfere in matters of
church government nor in matters of faith and doctrine.” Jae-Woo Cha v. Korean Presbyterian Church,
262 Va. 604, 611 (2001) (internal citations omitted).
Agreeing with the Fourth Circuit, the Supreme Court
of Virginia has specifically stated that the “right to
choose ministers without government restriction underlies the well-being of religious community.” Id.
(citing and quoting Rayburn v. General Conference of
7th Day Adventists, 772 F.2d 1164, 1167-68 (4th Cir.
1985) (internal quotations omitted)). “Any attempt by
government to restrict a church’s free choice of leaders
thus constitutes a burden on the church’s free exercise
rights.” Id. The Jae-Woo court further observed with
approval that “many courts have concluded that any
attempt by civil courts to limit a church’s choice of its
religious representatives.

85a
That Hosanna-Tabor and Jae-Woo involved employment disputes does not distinguish those cases
from the principle at issue in this case. The government need not provide an tax exemption for the residence of a minister of a church. But, having done so,
it is not in the government’s purview to judge whether
an individual, hired as a minister by a church, is
“qualified” to be a minister. A church, acting in good
faith, has a constitutional right to employ ministers of
its choosing to do the work of the Church.
The City’s essential argument is that the Storms
cannot be ministers of the Church for purposes of the
Tax Exemption Provisions of the Virginia Constitution or Virginia statute at issue. Specifically, the City
argues that regardless of whether one is considering
the use of the plural “ministers” as stated in the Virginia Constitution or the singular “minister” as stated
in the statute, the word is limited to someone who is
the “head of a religious congregation” who is “set apart
as the leader.” Memo in Support Page 4 (citing
Cramer v. Commonwealth, 214 Va. 561, 567 (1974).
The City’s position is flatly at odds with the federal
and Virginia case-law cited above which prohibit government from imposing its own determinations into
what constitutes a “minister.” Additionally, the City’s
reliance on Cramer is misplaced.
In Cramer, this issues did not involve the tax exempt status of any property owned by a church. Rather, the issue was a circuit courts revocation of certain ministers’ authority to act as marriage celebrants
pursuant to § 20-23 Va. Code. Id. at 563. The ministers at issue were ministers of the Universal Life
Church, Inc. which lacked any “traditional doctrine”

86a
or structure. Id. at 562. Basically, anyone who expressed a desire to be ordained could be and was ordained by Universal Life and the Court noted that one
could, apparently, become ordained without one’s
knowledge. Id. at 562-63. The “congregations” were
minimal and the so-called ministers interaction with
a congregation was “informal, incidental, and infrequent.” Id. at 563. After a local news reporter appeared at the clerk’s office with an ordination card and
requested authority to perform marriages, the clerk
questioned the eligibility and a show cause order was
entered. Id. The authority of the ministers was revoked and the appeal followed.
On appeal, the Commonwealth argued that the
marriage statute should be limited to ministers for
whom ministry was “full-time vocation.” Cramer, 214
Va. 563-64. The Court rejected that argument asserting that it was a matter of common knowledge that
many ministers “serve their congregations with complete fidelity and efficiency while holding outside employment.” Id. at 564. The Court further rejected the
application of any “religious test.” Id. In upholding
the revocation, the Court determined that the Universal Life Church was an “organization of ministers”
and determined that “[a] church which consists of all
ministers, and in which all new converts can become
instance ministers, in fact has no ‘minister’ . . . .” Id.
at 565. Thus, it was in the context of the marriage
statute and in the context of a church where anyone
who wished to become a minister could become a minister simply by asking, that the court stated that a
“minister” is the “leader.” That is not the situation
that is faced by this court and it is not the case that a

87a
person can become a “minister” of the New Life
Church by simple request.
The City’s apparent contention is that unless an
individual is ordained as a minister pursuant to the
Book of Church Order, the individual cannot be a
“minister.” The City ignores that each individual
church has the autonomy to engage an individual as a
“minister.” The City’s argument that a “minister”
must be the “leader” of a church does not comport with
how Presbyterian churches are organized.
The ruling body of a church in the Presbyterian
faith is called the Session. Judicial Comm. of PCA v.
Kim, 56 Va. Cir. 46, 46-47 (Fairfax Cir. 2001); see also,
Affidavit of Thomas Worman, ¶ 13-14, attached as Exhibit 1. The Session of a particular church (and, indeed, the Session of the New Life in Christ Church)
are elected by the church’s congregation. Affidavit at
¶ 12. The Session is the governing body of that particular church. Affidavit at ¶ 14. Although a church’s
pastor (i.e. the minister authorized to deliver sermons) is a member of the Session, the pastor is but
one member of the Session with one vote. Affidavit at
¶ 13. Put another way, the Session is the decisionmaking authority for the New Life in Christ Church
and its pastoral minister does not have autonomous
authority. Affidavit at ¶ 14. The relative autonomy
of a particular church is “codified” in the Book of
Church Order in Section 12.5. Affidavit at ¶ 16. A
copy of the relevant section of the Book of Church Order is attached hereto as Exhibit 2. Nothing in the
Book of Church Order prohibits a particular church
from hiring ministers to serve to carry its message of
faith.

88a
In its Motion, the City cites to Cudlipp v. City of
Richmond, 211 Va. 712 (1971) apparently to support
of its position that in order to be a “minister,” a person
must possess some measure of “authority” over the
congregation or church. Memo Pg. 7. In that case, the
circuit court had denied the church’s application to
challenge the City of Richmond’s denial of the property tax exemption for the residence of a “Bishop Coadjutor” (i.e. a person subordinate to a Bishop) and
determined that the Constitution and applicable Code
provisions limited exemptions to one minister per
church. Cudlipp, 211 Va. at 713. The Supreme Court
reversed because it was “by no means clear” that it
was the intent of the legislature or constitutional revisors to limit exemptions to the “residence of only one
minister for each church or religious body.” Id. The
Court also found it significant that the City of Richmond had a history of extending the exemption to assistant ministers of local churches. Id. Thus, even
though the relative authority of the Bishop Coadjutor
was referenced by the Court, it was not the main focus
of the analysis. There is no issue in this case that New
Life is seeking exemptions for more than one residence.
The City’s reference to the 1976 Attorney General
opinion actually tends to support this view of Cudlipp
insofar as the Attorney General noted that the Supreme Court ruled that a church may have more than
one minister. The Attorney General then proceeded
to opine that a “minister of music and education of the
church” would qualify as a “minister” for purposes of
the tax exemption. Significantly, the Attorney General reach his opinion irrespective of the fact that the

89a
minister was not “an ordained minister” but nevertheless was someone who “assists the pastor in answering to the needs of church members.” Most significant
was that the minister was a person “whose duties relate to the religious work of the church, as opposed to
duties which merely facilitate the operation of the
church.”
The City notes that Cudlipp was decided and the
1976 Attorney General opinions were issued using a
liberal construction of the constitutional provisions
and statutes at issue. It is true that under Article 10,
Section 6(f) of the Virginia Constitution, the tax exemption provisions of the Constitution and attendant
statutes are to be strictly construed. DKM Richmond
Assocs. v. City of Richmond, 249 Va. 401, 407 (1995).
However, the City cites to no case, and New Life has
found none, where strict construction has been interpreted to mean that the government may decide for a
religious organization who does or who does not qualify as a minister. The DKM case concerned whether
the City of Richmond had properly disallowed an exemption pursuant to its local ordinances regarding rehabilitated property. Id. at 402. In WestminsterCanterbury of Hampton Rds., Inc. v. Virginia Beach,
238 Va. 493 (1989), cited by the City, the issue was
whether a retirement community had met its burden
of demonstrating that its purpose was exclusively
charitable. Id. at 501. There is no statutory definition
of “minister” that is applicable to this case.
In determining this issue, New Life would submit
that the “strict construction” of Section 6(f) must yield
to the Establishment Clause rights of New Life. New
Life Church has hired the Ancaris as Youth Ministers.
Their function is to spread the message of New Life’s

90a
beliefs to young men and women of “college age.” New
Life views this function as essential religious work
that is vital to New Life sustaining its growth as a
church and maintaining its existence as a church. The
sincerity of New Life’s view in this matter is not something that can be determined on Summary Judgment
as credibility and intent are questions for the fact
finder. See generally, Ciejek v. Laird, 238 Va. 109,
113-14 (1989) (intent is a fact question); Wetlands Am.
Trust v. White Cloud, 291 Va. 153, 173-74 (2016)
(credibility is for the trier of fact).
V. CONCLUSION
For the foregoing reasons, the Motion for Summary Judgment of the City of Fredericksburg should
be overruled and denied.
Respectfully submitted,
Trustees of the New Life
In Christ Church
By Counsel
___T. Wayne Biggs___
T. Wayne Biggs, Esq.
Dycio & Biggs
10533 Main Street
Fairfax, Virginia 22032
Counsel for the Trustees of the
New Life in Christ Church
Robert M. Byrne, Esq.
10619 Jones Street, 3rd Floor
Fairfax, Virginia 22030
Counsel for the Trustees of the
New Life in Christ Church

91a
CERTIFICATE OF SERVICE
I hereby certify that on this _10_day of _February_,
2020, I caused a true and accurate copy of the foregoing to be forwarded via facsimile and regular US mail,
postage prepaid, first class, as follows:

John A. Rife, Esq. (VSB No. 45805)
Taxing Authority Consulting Services, PC
P.O. Box 31800
Henrico, Virginia 23294-1800
Phone: (804) 545-2500
Facsimile: (804) 545-2378
and
Kathleen Dooley (VSB No. 25725)
Fredericksburg City Attorney
600 Caroline Street
Fredericksburg, Virginia 22401
Counsel for the City of Fredricksburg

___T. Wayne Biggs___
T. Wayne Biggs, Esq.

92a
VIRGINIA: IN THE CIRCUIT COURT OF THE
CITY OF FREDERICKSBURG
TRUSTEES OF THE NEW LIFE
IN CHRIST CHURCH,
Plaintiffs,
v.
CITY OF FREDERICKSBURG,
Defendant.
AFFIDAVIT OF THOMAS J. WORMAN
COMES NOW YOUR AFFIANT, Thomas J.
Worman who deposes and states as follows:
1. My name is Thomas (“Tom”) J. Worman. I am
over the age of 18 and competent to testify in this matter.
2. I am a member of the New Life in Christ
Church. Additionally, I am currently a Deacon at
New Life in Christ Church, and I am currently one of
the Trustees of the New Life in Christ Church.
3. I am the Tom Worman identified in the website printout attached to the City of Fredericksburg’s
Memorandum of Law In Support of Its Motion for
Summary Judgment.
4. I have otherwise been a practicing member of
the Presbyterian faith for most of my life and my entire adult life. I have been a Deacon of New Life since
1989.
5. The Trustees of the New Life in Christ Church
are the record owners of real property located at 1708

93a
Franklin Street in the City of Fredericksburg (“Property”) which is the subject of this litigation.
6. Two individuals known as Josh Storms and
Ancari Storms (husband and wife) currently reside at
the Property.
7. The Storms are employed by the New Life in
Christ Church as Youth Ministers and have been
since 2017.
8. Prior to beginning their work as Youth Ministers, the Storms received training relating to the
Church’s expectations, goals and standards for youth
ministry and had prior experience. Specifically, Josh
Storms grew up in the church as a teenager and was
on the youth group and was the president of the Youth
Group and then went off to college. He was part of a
college ministry for the 4 years he was at Virginia
Tech. Since graduation he has taken part time classes
at New Geneva Seminary and he is under the direction of the NLIC session and has been mentored by
the assistant pastor. Anacari Storm grew up in the
church and did missionary work in Jordan for a year.
She is being trained by mentoring and on the job
training, and has a degree in theology. They are doing
ministry and are supervised by the session of NLIC.
Now they continue training in seminary classes and 2
CCEF training conferences annually.
9. The Storms’ activities and responsibilities as
Youth Ministers is summarized in the attached “Exhibit A” under “Summary of Responsibilities.” In addition to those specific responsibilities, the Youth
Ministers are expected to establish and maintain a
ministry catering to college-aged men and women

94a
which spreads the message of the New Life in Christ
Church to such young men and women.
10. The New Life in Christ Church views these
functions as essential, religious functions in that the
Church’s primary function is to spread its message of
salvation and redemption through the Christian faith.
The Youth Ministers function is also considered essential insofar as it is important to attract young
members who will hopefully be active members of the
Church for years to come.
11. The City’s arguments that a “minister” of a
church must be ordained or must be the person in
some leadership capacity does not comport with the
actual structure of the New Life in Christ Church and
misconstrues the Church hierarchy.
12. The ruling body of a church in the Presbyterian faith is called the Session. The Session of a particular church, such as New Life in Christ Church, is
elected by the Church’s congregation. The Session is
the governing body of such church.
13. A church’s pastor (i.e. an ordained minister
authorized to deliver sermons) is a member of the Session. However, the pastor is but one member of the
Session and has but one vote.
14. The decision-making authority for a Presbyterian church (and, accordingly, for New Life in Christ
Church) rests with the Session. The pastoral minister
does not have autonomous authority over the New
Life in Christ Church.
15. While it is true that in order to deliver sermons to the congregation a person doing so must be
an “ordained” minister, there is nothing in the Book of

95a
Church Order that prohibits a particular church from
hiring ministers to serve as messengers and teachers
of the faith.
16. In this respect, Section 12 of the Book of
Church Order provides each church rather broad authority to govern its own affairs which would include
the ability to hire ministers to cater to specialized
groups, such as youth.
17. With regard to the W-2 and tax withholding
issue raised in the brief, the New Life Church notes
that the federal tax exemption refers to a “minister of
the gospel” whereas the Virginia statute refers to a
“minister.” New Life has followed its CPA’s advice as
to how to issue its W-2s for employees.
AND FURTHER
NAUGHT.

YOUR

AFFIANT

SAYETH

I hereby affirm that the foregoing is true and accurate
to the best of information, knowledge and belief under
penalty of perjury.
Date:

_2-10-20_ SIGNED: _Thomas J. Worman_
Thomas J. Worman

96a
CHAPTER 12
The Church Session
12-1. The church Session consists of the pastor, associate pastor(s), if there be any, and the ruling elders
of a church. If there are four or more ruling elders,
the pastor and two ruling elders shall constitute a
quorum. If there are fewer than four ruling elders,
the pastor and one ruling elder shall constitute a
quorum. Assistant pastors, although not members of
the Session, may be invited to attend and participate
in discussion without vote.
When a church has no pastor and there are five or
more ruling elders, three shall constitute a quorum; if
there are less than five ruling elders, two shall constitute a quorum; if there is only one ruling elder, he does
not constitute a Session, but he should take spiritual
oversight of the church, should represent it at Presbytery, should grant letters of dismission, and should report to the Presbytery any matter needing the action
of a Church court.
Any Session, by a majority vote of its members,
may fix its own quorum, provided that it is not smaller
than the quorum stated in these paragraphs.
12-2. The pastor is, by virtue of his office, the moderator of the Session. In the pastor’s absence, if any
emergency should arise requiring immediate action,
the Session may elect one of its members to preside,
the quorum for such emergency meeting being as in
the case of a church with no pastor in 12-1. Should
prudential reasons at any time make it advisable for
a minister other than the pastor to preside, the pastor

97a
may, with the concurrence of the Session, invite a
minister of the same Presbytery to perform this service.
12-3. When a church is without a pastor, the moderator of the Session may be either a minister appointed for that purpose by the Presbytery, with consent of the Session, or one invited by the Session to
preside on a particular occasion, or one of its own
members elected to preside. In judicial cases, the
moderator shall be a minister of the Presbytery to
which the church belongs.
12-4. Associate or assistant pastors may substitute
for the pastor as moderator of the Session at the discretion of the pastor and Session.
12-5. The church Session is charged with maintaining the spiritual government of the church, for which
purpose it has power:
a. To inquire into the knowledge, principles and
Christian conduct of the church members under its
care; to censure those found delinquent; to see that
parents do not neglect to present their children for
Baptism; to receive members into the communion of
the Church; to remove them for just cause; to grant
letters of dismissal to other churches, which when
given to parents, shall always include the names of
their non-communing, baptized children;
b. To examine, ordain, and install ruling elders
and deacons on their election by the church, and to
require these officers to devote themselves to their
work; to examine the records of the proceedings of the
deacons; to approve and adopt the budget;

98a
c. To approve actions of special importance affecting church property;
d. To call congregational meetings when necessary; to establish and control Sunday schools and Bible classes with special reference to the children of the
church; to establish and control all special groups in
the church such as Men in the Church, Women in the
Church and special Bible study groups; to promote
world missions; to promote obedience to the Great
Commission in its totality at home and abroad; to order collections for pious uses;
e. To exercise, in accordance with the Directory
for Worship, authority over the time and place of the
preaching of the Word and the administration of the
Sacraments, over all other religious services, over the
music in the services, and over the uses to which the
church building and associated properties may be put;
to take the oversight of the singing in the public worship of God; to ensure that the Word of God is
preached only by such men as are sufficiently qualified (BCO 4-4, 53-2, 1 Timothy 2:11-12); to assemble
the people for worship when there is no minister; to
determine the best measures for promoting the spiritual interests of the church and congregation;
f. To observe and carry out the lawful injunctions of the higher courts; and to appoint representatives to the higher courts, who shall, on their return,
make report of their diligence.
12-6. The Session shall hold stated meetings at
least quarterly. Moreover, the pastor has power to
convene the Session when he may judge it requisite;
and he shall always convene it when requested to do
so by any two of the ruling elders. When there is no

99a
pastor, it may be convened by two ruling elders. The
Session shall also convene when directed so to do by
the Presbytery.
12-7. Every Session shall keep an accurate record of
its proceedings, which record shall be submitted at
least once in every year to the inspection of the Presbytery.
12-8. Every Session shall keep an accurate record of
baptisms, of communing members, of non-communing
members, and of the deaths and dismissions of church
members.
12-9. Meetings of the Sessions shall be opened and
closed with prayer.

100a
Appendix G
VIRGINIA:
IN THE CIRCUIT COURT
OF THE CITY OF FREDERICKSBURG
CASE No. CL 19395
_____________
TRUSTEES OF THE NEW LIFE
IN CHRIST CHURCH,
Plaintiff,
v.
CITY OF FREDERICKSBURG,
Defendant.
____________
TRANSCRIPT OF PROCEEDINGS
BEFORE THE HONORABLE PATRICIA
KELLY, JUDGE
Tuesday, February 18, 2020
9:05 a.m.
Fredericksburg, Virginia
Halasz Reporting & Videoconference
1011 E. Main Street, Richmond, VA 23219
(804) 708-0025
Reported by: Mark E. Brown, RPR

101a
APPEARANCES

ON BEHALF OF THE PLAINTIFF:
DYCIO & BIGGS
By:· T. WAYNE BIGGS, ESQUIRE
10533 Main Street
Fairfax, VA 22030
(703) 383-0100
twbiggs@dyciolaw.com

ON BEHALF OF THE DEFENDANT:
TAXING
AUTHORITY
CONSULTING SERVICES, P.C.
By:· JOHN A. RIFE, ESQUIRE
8919 Three Chopt Road
Henrico, VA 23229
(804) 545-2379
john@taxva.com

102a
PROCEEDINGS
THE COURT: Good morning. Let’s see. We are
on the record of the Trustees of the New Life in Christ
Church versus the City of Fredericksburg, case number CL-19395. And we have?
MR. RIFE: Good morning, Your Honor. John Rife
and Gregory Haynes for the City of Fredericksburg.
THE COURT: Good morning.
MR. BIGGS: Good morning. Wayne Biggs on behalf of the Trustees, and with me is one of the trustees, Mr. Thomas Worman.
THE COURT: Good morning. So we are here on
the City’s motion for summary judgment?
MR. RIFE: Yes, Your Honor.
THE COURT: All right.
MR. RIFE: If it please the Court, Your Honor,
we’re here on the City’s motion for summary judgment
because there is no material fact that’s in dispute.
When the amended complaint was filed, paragraph five indicated that the property that we’re discussing here known as 1708 Franklin Street was occupied by the church minister.
Through basic discovery, we learned that it was
not, in fact, Sean Whitenack, who is the lead pastor,
Doug Kittredge, the founding pastor, or Sam Capitano, who is the [assistant] pastor, but rather, the
house is occupied by Josh and Anacari Storms, who
the church considers their directors of college outreach, according to their jobs titles, with the church
and their work with the church is part-time.

103a
But before we get into it, Judge, I want to be on
record to indicate that the City’s position in this matter is in no way intended to lessen the good work and
important work that the Storms are doing for the
church, but the work that they are doing simply
doesn’t qualify them as the minister as required by
the statutes.
So the best place to start for us to reconnoiter
where we are with the lay of the legal land is to look
at the statute.
First of all, the constitution in article 10, section
6, goes into the exemption itself for tax exemptions for
churches and states that real and personal property
owned and exclusively occupied or used by churches
or religious bodies for religious worship or the residences of their ministers would be tax exempt.
And the constitution goes on to provide the General Assembly may limit but not expand these exemptions.
Now, the General Assembly took its legislative
privilege to provide that limitation in 58.1-3606(a)(2),
where they go in and say -- talking about residences
for their ministers -- in section 2 it indicates that property that is exclusively occupied or used for religious
worship or for the residence of the minister of any
church or religious body.
Now, there are two important differences to point
out between the constitution and the statute, and the
constitution says the residences of their ministers.
And in the limitation under 3606(a)(2), it’s the residence of the minister.

104a
Now, Your Honor, we’re here today on an application for a tax exemption for the property, that’s 1708
Franklin Street, and we would concede that in the
three tests that are required this Court to look at under the statute, you have to determine the ownership.
It is owned by the church or the trustees of the church.
You have to determine the use and you have to determine who the occupant of the residence is.
Now, the City concedes that you have the ownership and the use taken care of. It’s owned by the trustees of the church. And its use, it’s being used as a
residence. But it’s the occupancy that is at issue.
And the fact is not at issue that it’s occupied by
Josh and Anacari Storms, but the issue is whether
they fall into the term of the ministry. And we believe,
Judge, that the documentation that we have provided
to the Court and the statutes clearly indicate that
that’s not the case.
So the -- Josh and Anacari Storms have been designated as directors of college outreach in a part-time
capacity with the church, and we understand that the
church has carved out this role for them and that the
church is calling them ministers but minister is a
term of art, Judge, and it can be used in a number of
different connotations, but the way the statute indicates that it must be read is with a specific -- in a specific way, and it has a specific meaning and it points
to a specific person within the church.
In this term of art, we are required to review not
only who the minister is for qualification but I do need
to deal with the inference that was provided in the
Plaintiff’s motion in opposition where they indicated

105a
the Court can’t determine who a minister is, and specifically they reference a court case, the Hosanna case,
as they point to Hosanna versus EEOC, they indicate
this Court cannot make a determination as to who a
church minister is, and we’re not asking the Court to
determine who is and who is not a minister of a
church, but the Hosanna case dealt with an ADA complaint, and the ADA complaint, the layperson who
was called as a minister developed narcolepsy, ultimately they were determined -- the church determined to go a different direction and hired someone
else and terminated her, so she filed an ADA complaint.
Now, the Supreme Court said we can’t review that
because the courts can’t tell a church who its minister
is going to be, because by doing so, we’re going to fundamentally interfere with the organization and the
operation of the church.
That’s not what we are doing here today. So we’re
here today on an application for a tax exemption.
The Court’s determination one way or the other
whether the Storms are the minister of the church will
not affect the church’s operation in the least, so this is
outside of that ministerial exception from the establishment clause.
So there is no prohibition on the Court determining who the minister is for qualifying under the statute.
But back to that term of art. So the statute requires that the residence of the home be the minister
of the church. Clearly, the statute envisions that it’s

106a
going to have someone in that that house that has
some authority over the church, and to this the courts
have opined in the past who is the minister or who is
a minister for the purposes of celebrating marital
rights.
There is one case in particular that is on point
with the discussion that we’re having here, which is
the City of Richmond -- or Cudlipp versus the City of
Richmond. It’s the most on-point case, and you would
think after a few centuries of history we would have
some more case law that deals with specific on-point
matters, but this is as close as we can get, Judge.
The Cudlipp matter dealt with a bishop coadjutor
and he was over several of the churches but he was
not the -- he was not the bishop, he was the bishop
coadjutor, and they filed for a tax exemption for his
residence and initially it was denied and the Supreme
Court indicated and they looked at what the bishop
coadjutor’s duties were and the bishop coadjutor provided the services for the churches and he was considered the final authority for those churches and was
able in making its ruling that the residence that he
occupied was entitled to the tax relief or the tax exemption. The Court indicated that, you know, as far
as the churches go, yes, there is someone that is over
him, but for these churches that he administers, he is
the final authority.
So the courts have looked to the term, the minister, and put a specific definition of someone who is set
apart from the general congregation to someone who
is -- who personifies the leader of the church, if you
will.

107a
And, Your Honor, in the -- in the Plaintiff’s brief
in opposition, they indicate that the City’s position is
that we’re indicating that you have to be ordained to
be considered the minister and that’s simply not the
case, Your Honor.
This church is organized under the Presbyterian
Churches of America. They have a book of order. In
that book of order, they establish who their pastor is
going to be and the assistant pastor and they have a
hierarchy that has been established.
The City’s contention is not that you have to be an
ordained minister in order to qualify for this. There
are a plethora of churches that do not have an ordained minister as their head. In those cases, the pastor of those churches, even if they have not been fully
ordained by, you know, a higher authority, if you will,
a governing authority, they may still qualify for the
tax exemption, but in this case, we have a book of
church order that establishes how the New Life in
Christ Church is to be organized and it indicates who
their pastors are going to be, and the City’s position is
when you have a rule -- a rule book, you have to follow
it.
And in this case, Josh and Anacari Storms are not
pastors, they are not ordained, and by admissions
through interrogatories that we filed, they have never
preached a sermon in front of the congregation but
they are directors of college outreach.
They are ancillary to the overall purpose of the
church, performing good work for the church, no
doubt, no question, but they are ancillary part-time
members of the church.

108a
The use of the term the minister in the code,
Judge, is indeed a term of art, and it’s intended to connotate one who is the leader of the congregation. One
that’s personified as the spiritual leader of the church.
And the requirement of the code just can’t square with
the contention that an adjunct part-time staff member
of the church would be the religious leader of the
church in order to survive strict scrutiny, which by the
constitution, Judge, this Court has to review these exemptions with strict scrutiny and it’s the burden of the
individual that’s claiming the tax exemption to overcome the burden of proof and to show that they qualify. And in this case, it simply does not qualify.
The exemption requirement is codified and it’s a
matter of legislative grace and the Plaintiffs have not
shown that a clergy or a member of the church who is
the minister resides in that house. It simply does not
qualify, Your Honor, and the City asks the Court to
grant its motion for summary judgment and dismiss
the matter.
THE COURT: Thank you.
Mr. Biggs, sir.
MR. BIGGS: Yes, ma’am.
Judge, in this case, I think the primary consideration for today is the procedural posture of where we
are today. We are here on a motion for summary judgment, and under a motion for summary judgment, the
facts are viewed in the light most favorable to the nonmoving party which is the trustees. Inferences, if any
are to be drawn, are to be drawn in favor of the trustees.

109a
And I think that basically on the case as is presented to you, I don’t think it’s appropriate to make
this decision on summary judgment.
The Storms are youth ministers and the City, although it claims to not be trying to dictate to this
church who its ministers can or can’t be, I think that’s
exactly what they’re doing.
And we both seem to agree that there is no definition of minister that is provided by the code, at least
in the context of -- in the context of tax exemption.
Judge, one of the cases that the City cited I think
is instructive of how I view this and how the church
views this and that’s the Kramer case.
In Kramer, a charter was revoked and upheld on
appeal against a religious organization that basically
the facts of the case were that in that religious organization, everyone could become a minister. All you
had to do was ask to be a minister.
As a matter of fact, one of the more salient points
that I noted was apparently you could be a minister
even without realizing you had become a minister.
And I say that to say this. I think what Kramer
instructs is that if the Court were presented with a
situation in which it were -- in which the allegations
were that this was a sham or that an organization is
perpetrating a fraud in that the minister was not bona
fide in any way, that I think the Court could rightly
hear evidence on that to make that determination,
whereas here, the ministers at issue are legitimately
engaged in religious work.

110a
I think the government is not permitted to dictate
who, quote/unquote, qualifies as a minister or not and
I think that that is true regardless of strict scrutiny in
this case because I think the import of the Hosanna
case that they cite to and that I’ve cited to in my brief,
yes, it’s an employment case, but what the Supreme
Court says is that the ADA has to yield to the establishment clause, and the ADA cannot dictate to a
church who its ministers can be.
Now, in this particular case, the facts that we asserted in our brief that we would submit are in dispute
or would be facts that the Court should give full consideration to at a hearing instead of summary judgment is that there are actually two pastors who regularly provide sermons, and that’s in interrogatory
number seven, and I point that out to say this, that in
this particular case, one would wonder under the
City’s position if it were a case of whether or not one
of these pastors was entitled to the exemption, would
be City be permitted at that point to judge whether or
not the lead pastor versus the senior pastor was the,
quote/unquote, leader in the City’s view. And I would
submit to you that as long as the Court is satisfied
that both of them are doing religious work, then it’s
not to the City to decide who the, quote/unquote,
leader is of the church.
I think it’s important also to bear in mind in this
case we are not presented with a case in which there
are three or four different properties and this church
is trying to claim an exemption for each one of them.
There is only one property at issue.

111a
Continuing, even as to the two pastors that apparently they’re pointing to as people who would be the
minister, under the churches hierarchy, its actual hierarchy, neither one of them are actually the unquestioned or the autonomous leader with full authority
over the church.
Under the affidavit provided by Mr. Worman attached to my brief, pastors are simply members of the
session which is the governing body of the church.
Pastors just have one vote just like any other member.
The decision-making authority of any church rests
with the session. And under section 12.5 of the Book
of Church Order which is attached to my moving papers, the session is in charge of the, quote, spiritual
government of the church.
And under 12.5(e), one of the powers granted to a
church is to determine the best measures for promoting the spiritual interest of the church and congregation, such as creating a youth ministry and hiring
youth ministers.
Further through the affidavit it asserts the
Storms received training and had youth ministry experience to begin with before starting this ministry.
Mr. Storms is taking seminary classes and Mrs.
Storms has a theology degree and did missionary
work in Jordan to begin with.
The affidavit also sets forth the extensive responsibilities that they both have. And crucially under the
affidavit, the church views these as religious functions.

112a
And that is, I think, another key distinction. It’s
not simply a matter of the operation of the church.
The church does not have somebody who is, say, a
maintenance man or janitor in the residence and trying to claim that as an exemption.
These are people who do religious work and religious functions, and they are certainly leaders in the
context of youth ministry.
I’ve already discussed the Hosanna case, and I
would note again, as I set forth in my brief, there were
several concurring opinions that cautioned against
any test by Judge Thomas, that the government
shouldn’t be allowed to second-guess a religious organization in determining who its minister should be.
And Judge Alito determined that formal ordination
should not be dispositive, but the term “minister”
should apply to anyone who has a message of faith.
The Jawoo (phonetic) case from the Virginia Supreme Court admonishes that the government
shouldn’t interfere with matters of faith and doctrine
and the right to choose ministers without government
restriction underlines the wellbeing of a religious community.
And it says that any attempt to restrict a church’s
free choice of its leader is a burden on free exercise.
As far as Cudlipp is concerned, I think the interesting point about Cudlipp is exactly what we have
here. We have somebody who is essentially an assistant pastor or is not the head of the church, but in that
case, Cudlipp allowed for the exemption, and I understand that’s under the prior liberal interpretation, but

113a
I would submit that the strict construction of the constitution at this point doesn’t make a difference in this
case because the determination of whether or not
someone is doing religious work to be a minister or the
minister of the church should rest with the church.
And the City also cites to an Attorney General
opinion which affirmed that ordination didn’t matter
but that what one should look at is whether the people
who are at issue as ministers are doing religious work.
So from the Church’s perspective, Judge, the people who are asserted as ministers were hired as ministers, they have a specific ministry within the church
and they are doing religious work.
The City’s assertion that the minister can only be
the head is problematic on a number of levels; namely,
as I set forth in this particular case, though we have
two different pastors who deliver sermons every Sunday, the, quote/unquote, decision-making body of the
church is the session.
So in that sense, I think that I would come back
around to the fact that we’re here on summary judgment, and with all facts inferred in the Church’s favor,
I don’t think it’s appropriate to make this decision on
summary judgment. Thank you.
THE COURT: Mr. Biggs, when you’re saying
there are material facts in dispute, I understand that
there may be more than one pastor who preaches on a
particular day, but that’s really not an issue in this
particular case.
The issue in this case, I think we all agree factually where we are, the first two prongs are met, the

114a
third prong is what’s at issue and the issue is whether
the two individuals living in this property -- I don’t
remember the exact address -- but living at this particular property are ministers for purposes of the tax
exemption.
I don’t think anyone is trying to tell this church
who their ministers are. I don’t think we can, I don’t
think we should be able to or that we should, but the
issue is whether they qualify for purposes of the tax
exemption as ministers and that’s really the focus of
this Court, and it’s similar to Cudlipp.
I was amazed at how few reported cases there
were on this issue, but nonetheless, here we are.
So what are you alleging are the material facts in
dispute that it’s not appropriate for a summary judgment motion at this point?
MR. BIGGS: Well, I would submit to the -- well,
the fact that they’re doing religious work that the
church considers to be religious work. Maybe that’s
not in dispute. Maybe the real argument that I’m
making is that under the establishment clause, regardless of the fact that we’re talking about the tax
statute, I don’t see a distinction between telling them
who their ministers are saying this person can’t be a
minister for purposes of the tax exemption. What is
the difference?
THE COURT: Well, they’re not telling the church
you can’t use these people as ministers. They’re not
saying that. They’re not trying to dictate. The church
can call anybody a minister.

115a
I mean, I’m not saying that the church does that,
but basically your position is if the church says they’re
a minister then you can’t look beyond that. That’s essentially your position.
MR. BIGGS: Having given an exemption, the
General Assembly I think is bound by the first amendment in the establishment clause, and that is essentially my position except I would say this, that the
facts that we have presented in opposition to this brief
demonstrate the kind of work that they are doing and
the level of work that they’re doing, and I think as long
as there is a bona fide sincere belief by the church that
they have asserted these people as ministers, then
that is a fact for resolution at trial and not appropriate
for summary judgment.
THE COURT: Are you disputing that they are doing religious work?
MR. RIFE: Your Honor, we’re not disputing
they’re doing religious work. We’re disputing the fact
that they aren’t in that narrow class of individuals
that would be that -- would be established in order to
qualify for the tax exemption.
I think they are reaching out to college students
but it’s an ancillary function of the church and they
don’t minister to the church as a whole. They provide
an adjunct function for the church.
MR. BIGGS: We don’t agree that it’s ancillary or
adjunct. Part of my brief is actually how important
the church considers that to be in maintaining the
spiritual growth of the church. The youth ministry is

116a
very important to the church. To call it ancillary or
adjunct is not something that we would agree with.
THE COURT: Well -- okay. I’m looking for the -and I know I saw it when I was reviewing this file. I’m
looking for the job listing. Where is that?
MR. BIGGS: If you go to my brief in opposition,
the quickest place is attached to the Worman affidavit
or behind the Worman affidavit.
THE COURT: Got it. Thank you. I knew I had
seen it. And the job title is Director of College Outreach.
MR. BIGGS: Correct.
THE COURT: And it lists the description. Describes it as a missionary position, an adjunct staff
member of NLICC, which I guess is the New Life In
Christ Church?
MR. BIGGS: Correct. And then you have the
summary of responsibilities.
THE COURT: All right. Thank you, Mr. Biggs.
I’m sorry, I’m back with you, Mr. Rife. Do you
want to respond to Mr. Biggs?
MR. RIFE: Your Honor, just briefly. There was
some discussion about the Attorney General’s opinion
which we included as a copy to our brief that we referenced, and even in the AG’s opinion it goes to look
to see what -- in that case -- in that matter, it was a
director of the music. And in that particular case, the
director of music stepped in and oversaw the sermons
of the church while the pastor was not there at the

117a
church and ultimately it was determined that his duties rose to the level of providing the minister functions to the church. And in the Attorney General’s
opinion, it was deemed that he -- that his residence
would qualify; however, that was determined under
the liberal interpretation of the statute and that’s
where this really turns.
So if the property was owned prior to the change
in the constitution, it was given a liberal interpretation.
Now we’re dealing with a strict interpretation by
[its] very terms in the constitution and I don’t think
any way that we slice this, if you read this statute and
the constitution with the strict interpretation that’s
required, they simply don’t qualify.
They’re doing good work for the church and we
laud their efforts but they don’t fall under this tax exemption and we’d ask the Court to grant our summary
judgment.
THE COURT: Mr. Biggs, I’m coming back to you
because I’m trying to focus on the issue.
I mean, even in Cudlipp, we agree that they
looked at the duties of what this person was doing to
determine if they qualified for the exemption, and so - but your theory, and I’ve read the cases from the Supreme Court that you cited, your theory is that we
can’t even, we being the courts, can’t look at what a
minister does in order to determine if they are a minister, that if the church says they’re a minister, they
are a minister.
MR. BIGGS: Not exactly.

118a
THE COURT: I want to make sure I understand
your point because obviously I know we’re on summary judgment as well, but I want to make sure I understand what your position is on that issue.
MR. BIGGS: Because if we were simply saying
this person is a minister and offering nothing else, or
if we were saying this person is a minister and the
facts bore out that they -- as the example I already
gave, that they were a maintenance man or janitor or
some other kind of administrative function within the
church that doesn’t have any religious function, then
I think the Court is absolutely right to look at that
because the Court can always determine whether or
not an assertion is bona fide or sincere in the assertion
of a minister.
But what I am saying is that once it has been established that the person being asserted as a minister
is, in fact, doing religious work that the church deems
important, then I do, with all due respect, submit that
this question of whether it rises to the level of some
sort of threshold that’s not within the statute and
that’s not truly defined in the case law is problematic
and at odds with the first amendment establishment
clause.
Once you have determined that someone is doing
religious work and they are -- and under these facts,
again, we only have the one residence that the church
owns, it’s not a case where there are three or four different churches and you have to determine whether or
not you get one minister per church -THE COURT: I don’t think that’s an issue in this
case.

119a
MR. BIGGS: I’m just pointing out that this is
solely focused on the Court’s ability to judge whether
or not someone’s religious work is sufficient to meet
the term “minister” under the statute, and I think
that what the U.S. Supreme Court case as well as the
Virginia Supreme Court cases I have submitted suggest is that the Court can’t do that or should not do
that. Certainly at least on summary judgment, the
Court should not do that.
THE COURT: And I’m coming back to the summary judgment as well. You do not think that I have
all of the information that I need in front of me to
make this decision.
What piece of information or what fact do I need
or is in dispute that it’s not a solely legal determination at this point? Which is what summary judgment
really is.
MR. BIGGS: Well, I think there would always be
-- there would be testimony from the Storms, there
would be further testimony from Mr. Worman, but as
far as the affidavit that we have provided, I think that
what you have in front of you is a general idea or a
general listing of the work that they do that could be
expanded -- or expounded at trial that would give the
Court a better idea of whether or not the work that
they’re doing is, as the City puts it, sufficient to rise
to the level of minister.
Again, and I say that maintaining my position
that I don’t think it is the government’s purview or
province to determine what is sufficient once we have
determined that religious work is being done.

120a
THE COURT: Okay. Thank you, Mr. Biggs.
MR. BIGGS: Yes, ma’am.
MR. RIFE: Your Honor, if I may.
THE COURT: I mean, it’s an interesting issue for
me. Obviously I’ve read it and I’m interested but I’m
coming back to you and I’m happy to hear anything.
It’s your motion so your final word.
MR. RIFE: Just briefly, Your Honor. The establishment clause is not an issue here.
First of all, to say that no court in Virginia could
ever look to see whether the statute complies or that
the minister is required to be the resident, it would
take the entire fact-finding out of that. It would take
the rule and only require the church to own it and it
be used as a residence, and it didn’t matter who lived
there because the Court could never look behind the
veil of who is there and what their functions are, so I
find that absurd.
We have a statute that says that a church is
granted a tax exemption so long as they meet those
three tests and that is that it’s owned by the church
or the trustees, that it’s used as a residence, and it’s
occupied by the minister. And that’s a specific term of
art that is -- and I agree with the Court, we’re looking
at it from the perspective of a legal perspective of the
minister and how that fits into the current facts that
the Court has before us.
I don’t think there’s anything else to be gleaned
through a trial. I think we’ve conceded that the

121a
Storms are part-time and in the church’s terms in the
responsibilities an adjunct member of the church.
Now, they have been bestowed by the church as,
you know, a minister, but under the book of order,
that’s not -- the pastors are laid out in the book of order, so from the perspective of how the church operates internally, this adjunct part of the church does
good work for the church, no question, but from a dayto-day -- at the time when the church members gather
and someone stands at the pulpit and they are ministering to the congregation, that is the pastor and the
assistant pastor, that’s not the Storms.
And if you were to ask any member of the congregation who the minister was, I don’t think anyone is
going to say the Storms, but we don’t have to get to
that point because we know what their duties are and
the Court can determine that the Storms, who are the
residents of that property, are not the ministers, and
Your Honor, we think that the summary judgment is
proper.
THE COURT: Thank you, sir.
I have read everything that you have put forward
and I find it to be an interesting case. It is very well
done briefs on both sides, but based on what’s in front
of me today, it is a motion for summary judgment, I
am mindful of the legal standard, I do not find that
there is any material fact in dispute at this point that
a trial would gain further information, and based on
the rulings in Cudlipp and Kramer, I am granting the
motion for summary judgment and the matter is dismissed.

122a
Mr. Rife, are you going to get me an order?
MR. RIFE: Your Honor, I have one sketched out
that is very brief but it says -THE COURT: Mr. Biggs, I will note your exception for the record.
MR. BIGGS: Yes, ma’am.
THE COURT: I don’t know what’s in the order
but I would like it to be clear that I have read the job
responsibilities and I’ve read the briefs and just want
to make sure that we’re being clear for the record, in
case this has to go further, which it could.
MR. RIFE: See if this suits the Court.
THE COURT: And I guess it covers everything
that was included in all of the briefs. I basically went
from the amended complaint forward.
Well, I started at the initial complaint and then I
went from the amended complaint and I went forward
and I reviewed the response to interrogatories, the request for production of documents, the job title, the
briefs, all of that has been reviewed and I don’t find
there is any material fact in dispute and it’s appropriate for summary judgment, so I will enter this order
and we will be clear for that for the record and that’s
the best I can do at this point. Anything else for today?
MR. RIFE: No, Your Honor.
MR. BIGGS: No, ma’am.
THE COURT: Nice to meet both of you gentlemen. I enjoyed reading your briefs.

123a
(The proceedings concluded at 9:41 a.m.)

124a
CERTIFICATE OF COURT REPORTER
I, Mark E. Brown, RPR, do hereby certify that I
recorded verbatim the proceedings in the Circuit
Court of the City of Fredericksburg in the captioned
cause, heard by The Honorable Patricia Kelly, Judge
of said court, on February 18, 2020.
I further certify that the foregoing pages numbering 1 through 31 inclusive, constitute a true, accurate,
and complete transcript of said proceedings.
Given under my hand this 26th day of March,
2020.

______Mark E. Brown_____
Mark E. Brown, RPR, Notary Public
Commonwealth of Virginia
Registration No. 7564442

125a
Appendix H
IN THE SUPREME COURT OF VIRGINIA
Record No. ___________
TRUSTEES OF THE NEW LIFE IN CHRIST
CHURCH,
Plaintiff-Appellant,
v.
CITY OF FREDERICKSBURG,
Defendant-Appellee
____________
PETITION FOR APPEAL
____________

Reed N. Smith (VSB#77334)
rsmith@clsnet.org
Christian Legal Society
Center for Law and Religious Freedom
8001 Braddock Rd., Ste. 302
Springfield, VA 22151
(703) 642-1070 (telephone)
(703) 642-1075 (facsimile)
Counsel for Appellant Trustees of
the New Life In Christ Church

126a
TABLE OF CONTENTS
Table of Authorities.................................................... iv
Glossary ....................................................................... 1
Introduction ................................................................. 2
Assignments of Error .................................................. 5
Nature of the Case and Proceedings Below ............... 6
Statement of Facts ...................................................... 8
Argument ..................................................................... 9
Standard of Review ..................................................... 9
I.

Review is needed to clarify that Virginia
courts may not overrule a church’s sincerely
held religious beliefs as to who is a minister
under principles of church doctrine and
governance. (Assignment #1) ...................... 10
A. Civil courts may not decide questions of
faith, doctrine, or church governance.
(Assignment #1) ...................................... 11
B. The question of who is a minister
pursuant to church doctrine is
unquestionably religious. (Assignment #1)
............................................................... 14

II. Under the religious function test required by
neutral principles of law, New Life in Christ
Church’s Directors of College Outreach are
ministers. (Assignment #2) ...................... 1

127a
A. Virginia and Federal law require that
courts use a religious function test to
determine who qualifies as a minister.
(Assignment #2) .................................... 1
B. Because it is undisputed that the
Directors of College Outreach do religious
work, the Court should hold they are
ministers. (Assignment #2) .................... 20
1. Under the religious function test,
employees who do important religious
work qualify as ministers. ................. 
2. A narrow construction of “minister”
would be constitutionally suspect and is
unsupported by the text or precedent. 26
a. A narrow construction of “minister”
under § 58-3606(A)(2) would be
constitutionally suspect.................. 26
b. The City’s narrow construction is not
supported by the exemption’s text or
by precedent. ................................... 28
III. In the alternative, there are material
questions of fact that preclude summary
judgment. (Assignment #3) ......................... 31
Conclusion ................................................................. 32
Certificate .................................................................. 33

128a
TABLE OF AUTHORITIES
CASES
Alicea-Hernandez v. Catholic Bishop of Chicago,
320 F.3d 698 (7th Cir. 2003) ........................ 23, 24
Bloodworth v. Ellis,
221 Va. 18 (1980) ................................................ 10
Bowie v. Murphy,
271 Va. 127 (2006) ........................................ 10, 11
Carson v. LeBalanc,
245 Va. 135 (1993) .............................................. 31
Cha v. Korean Presbyterian Church,
55 Va. Cir. 480 (2000) ........................................... 2
Cha v. Korean Presbyterian Church of Washington,
262 Va. 604 (2001) .......................... 2, 8, 11, 12, 13
Church of Lukumi Babalu Aye, Inc. v. City of Hileah,
508 U.S. 520 (1993)............................................. 28
Clover Hill Reformed Church v. Twnshp. of Hillsborough
2018 WL 1478024 (N.J. Tax. Mar. 23, 2018)
....................................................................... 24, 25
Cramer v. Commonwealth,
214 Va. 561 (1974) .................................. 23, 29, 30
Cudlipp v. City of Richmond,
211 Va. 712 (1971) ........................................ 29, 30
Denny v. Prince,
68 Va. Cir. 339 (2005) ......................................... 15
EEOC v. Roman Catholic Diocese of Raleigh, N.C.,
213 F.3d 795 (4th Cir. 2000) .............................. 23
Employment Division, Department of Human Resources of Oregon v. Smith, 494 U.S. 872 (1990)
............................................................................. 28
Gray v. Binder,
294 Va. 268 (2017) ...........................................9-10

129a
Hernandez v. Commissioner of Internal Revenue,
490 U.S. 680 (1989)............................................. 16
Hosanna-Tabor Evangelical Church & Sch. v. EEOC,
565 U.S. 171 (2012)...................... 8, 12, 13, 15, 19
Jones v. Wolf,
443 U.S. 595 (1979)............................................. 13
Kedroff v. Saint Nicholas Cathedral of Russian Orthodox Church in N. America, 344 U.S. 94 (1952)
....................................................................... 12, 15
Larson v. Valente,
456 U.S. 228 (1982)............................... 4, 5, 26, 28
Md. & Va. Churches v. Sharpsburg Church,
396 U.S. 367 (1970)............................................. 14
Mount Aldie, LLC v. Land Trust of Virginia, Inc.,
293 Va. 190 (2017) .............................................. 10
Neal v. Fairfax Cnty. Police Department,
295 Va. 334 (2018) .............................................. 10
Our Lady of Guadalupe Sch. v. Morrissey-Berru,
140 S. Ct. 2049 (2020)................................. passim
Rayburn v. General Conference of Seventh-Day Adventists,
772 F.2d 1164 (1985).............................. passim
Reid v. Gholson
229 Va. 179 (1985) ............................... 3, 11, 17
Serbian E. Orthodox Diocese for U.S. of Am. & Canada v. Milivojevich,
426 U.S. 696 (1976) ................................ 13, 14
Slone v. General Motors Corp.,
249 Va. 520 (1995) .............................................. 31
Thomas v. Review Board of Indiana Employment
Sec. Division,
450 U.S. 707 (1981)............................................. 11
Watson v. Jones,
13 Wall. 678 (U.S. 1871) ..................................... 12

130a
CONSTITUTIONS AND STATUTES
Va. Const., Art. X, § 6 ...................................... 3, 26, 32
Va. Const., Art. X, § 6(a)(2) ............................... 5, 6, 11
Va. Code § 1-227 ........................................................ 29
Va. Code § 58.1-3606 ................................................. 26
Va. Code § 58.1-3606(A)(2) ........................... passim
Va. Code § 58.1-3984 ................................................... 6
OPINIONS OF THE ATTORNEY GENERAL
1976 Va. Op. Atty. Gen. 276 (Va. A.G. 1976) ........... 24
TREATISES AND OTHER AUTHORITIES
Bruce N. Bagni, Discrimination in the Name of the
Lord: A Critical Evaluation of Discrimination by
Religious Organizations, 79 Columbia L. Rev.
1514 (1979) .....................................................20-21
James Madison, Memorial and Remonstrance
Against Religious Assessments, in Selected Writings of James Madison 21 (R. Ketcham ed. 2006)
............................................................................. 13

131a
GLOSSARY
BCO

Presbyterian Book of Church Order

City

The City of Fredericksburg

MSJ

Defendant’s Motion for Summary Judgment (filed 1/10/20)

MSJ Memo

Defendant’s Memorandum of Law in
Support of its Motion for Summary Judgment (filed 1/10/20)

NLICC

New Life in Christ Church

Opp.

Plaintiff’s Opposition to the Defendant’s
Motion for Summary Judgment (filed
2/11/20)

Order

Order Granting Summary Judgment
(filed 2/18/20)

Tr.

Transcript of February 18, 2020 Hearing
on Defendant’s Motion for Summary
Judgment

Worman Aff.

Affidavit of Tom Worman (attached to
Plaintiff’s Opposition to the Defendant’s
Motion for Summary Judgment)

132a
INTRODUCTION
The Court should grant review to correct the circuit court’s departure from clear precedent prohibiting courts from interpreting religious doctrine and to
promote uniform application of Virginia’s tax exemption for the residence of ministers.
This Court unanimously affirmed a circuit court’s
holding that it was “constitutionally prohibited from
reviewing ... the [Presbyterian Book of Church Order
(“BCO”)], a religious document. Such a review would
require this Court to both interpret the BCO and
make faith-based determinations concerning the roles
and scope of authority of Church leaders.” Cha v. Korean Presbyterian Church, 55 Va. Cir. 480 at *4
(2000), aff’d sub nom. Cha v. Korean Presbyterian
Church of Washington, 262 Va. 604 (2001). Noting a
string of United States Supreme Court precedent
holding that “civil courts are not a constitutionally
permissible forum for a review of ecclesiastical disputes,” Cha, 262 Va. at 610, this Court agreed that
civil courts lack subject matter jurisdiction to “adjudicate issues regarding the church’s governance, internal organization, and doctrine.” Id. at 612.
Despite this clear and binding authority, the circuit court relied on the City of Fredericksburg’s interpretation of the BCO to hold that the Directors of College Outreach for New Life In Christ Christian
Church (“NLICC”) are not ministers of the church despite the City’s concession that they do important religious work for NLICC. The court therefore held
their church-owned residence does not qualify for Virginia’s property tax exemption for the residence of

133a
ministers. VA. CONST. Art. X, § 6, Va. Code § 58.13606(A)(2). Tr. 27-28; Order.
On matters touching religion, courts must apply
“neutral principles of law.” Reid v. Gholson, 229 Va.
179, 188 (1985). Under neutral principles of law,
courts must look primarily to an employee’s religious
functions to determine whether the employee is a
“minister.” See, e.g., Our Lady of Guadalupe Sch. v.
Morrissey-Berru, 140 S.Ct. 2049, 2064 (2020) (“What
matters, at bottom, is what an employee does.”); Rayburn v. Gen. Conference of Seventh-Day Adventists,
772 F.2d 1164, 1168 (1985) (“[Ministerial status] does
not depend upon ordination but upon function of the
position.”).
Here, the City of Fredericksburg (the “City”) admits that NLICC’s Directors of College Outreach are
“doing religious work” that is “important ... for the
church.” Tr. 4, 20. This concession alone should be
sufficient to conclude they are ministers. See Rayburn, 772 F.2d at 1169 (“[I]f the employee’s primary
duties consist of teaching, spreading the faith, church
governance, supervision of a religious order, or supervision or participation in religious ritual and worship,
he or she should be considered ‘clergy.’”). Instead, the
City determines who qualifies as a minister through a
vague and inconsistent individualized assessment
that sometimes requires ordination and other times
does not. Tr. 10. Such differential treatment is constitutionally prohibited. See Larson v. Valente, 456
U.S. 228, 244 (1982) (“The clearest command of the
Establishment Clause is that one religious denomination cannot be officially preferred over another.”); see
also Our Lady, 140 S.Ct. at 2066 (“In a country with
the religious diversity of the United States, judges

134a
cannot be expected to have a complete understanding
and appreciation of the role played by every person
who performs a particular role in every religious tradition.”).
The City’s reliance on narrow construction of tax
exemptions cannot save its position. The United
States Supreme Court has warned that narrow construction of religious exemptions is constitutionally
suspect. Larson, 456 U.S. at 243. As this case illustrates, the City’s narrow construction of “minister” invites the type of entanglement with religion that this
Court has held is impermissible. For these reasons,
the Court should grant review and reverse the circuit
court’s judgment for the City.
ASSIGNMENTS OF ERROR
1. The trial court committed constitutional error
and exceeded its jurisdiction when it accepted the
City’s interpretation of the Presbyterian Book of
Church Order to grant Defendant’s motion of summary judgment and hold that a church’s Directors of
College Outreach do not qualify as ministers for Virginia’s property tax exemption for ministers’ churchowned residences. Order, Opp. 1-11; Tr. 11-21, 24-26,
29.
2. The trial court erred when it granted Defendant’s motion for summary judgment because, under
neutral principles of law, undisputed facts demonstrate that New Life In Christ Church’s Directors of
College Outreach are ministers under a correct interpretation of Virginia’s property tax exemption for
ministers’ church-owned residences. Order, Opp. 111; Tr. 11-21, 24-26, 29.

135a
3. In the alternative, the trial court erred when
it granted Defendant’s motion for summary judgment
because disputed material fact issues exist as to
whether New Life In Christ Church’s Directors of College Outreach are ministers under Va. Const. Art. X,
§ 6(a)(2) and Va. Code § 58.1-3606(A)(2). Order, Opp.
2-4, 10-11; Tr. 11-16, 25-26, 29.
NATURE OF THE CASE AND PROCEEDINGS
BELOW
This case arises from NLICC’s request for a property tax exemption for church-owned residences of
ministers pursuant to the Virginia Constitution and
Virginia law. VA. CONST. Art. X, § 6(a)(2); Va. Code §
58.1-3606(A)(2); Amended Complaint ¶¶ 4-8 (Case No.
19-395). This action was filed pursuant to Virginia
Code § 58.1-3984. Amended Complaint ¶ 1. On April
24, 2019, the Trustees of the New Life in Christ
Church filed suit against the City of Fredericksburg
(the “City”) in the Circuit Court for the City of Fredericksburg to contest the City’s denial of its request
for a property tax exemption at 1708 Franklin Street,
Fredericksburg, Virginia 22407 (the “Property”).
Amended Complaint ¶¶ 4-6. The Trustees filed an
Amended Complaint on August 26, 2019.
Shortly after discovery began in this suit, the City
filed a Motion for Summary Judgment (the “Motion”).
In the Motion, the City noted that Josh and Anacari
Storms, who serve as NLICC’s Directors of College
Outreach, reside at the Property. MSJ 1-2; MSJ
Memo 2-3. The City argued that, despite the NLICC’s
representations that the residents of the property at
issue are ministers, they should not be considered
“ministers” pursuant to the Presbyterian Book of

136a
Church Order (“BCO”), which sets NLICC’s church
governance. See MSJ 2; MSJ Memo 5-9; see also, e.g.,
MSJ Memo 8 (“[The resident] is not a minister in accordance with the rules and regulations of his chosen
denomination.”).
The Trustees responded in opposition, noting that
“the government may not, as a matter of federal constitutional law and Virginia law, dictate to a church
who may be a ‘minister.’” Opp. 2. The Trustees argue
that the City’s interpretation of the BCO “does not
comport with the actual structure of the New Life in
Christ Church and misconstrues the Church hierarchy,” and “unnecessarily require[s] this court to delve
into questions of faith and doctrine.” Id. at 4-7. Instead, the Trustees argued that the court must look to
the residents’ responsibilities, and that NLICC views
the residents’ role in college outreach “as essential religious work that is vital to New Life sustaining its
growth as a church.” Id. at 11; see also id. at 4-7. The
Trustees provided evidence that the Storms perform
essential religious functions at NLICC. Id. at 3-4 &
Exhibit A; see also Worman Aff. ¶¶ 6-10 & Exhibit A.
During hearing on the motion, the City continued
to argue its interpretation of the BCO. Tr. 9-11, 27-28.
The Trustees contended such argument was improper
and contrary to Hosanna-Tabor and Cha. Tr. 11-18,
19-21. Instead, courts should focus on whether “the
ministers at issue are legitimately engaged in religious work.” Tr. 13; see also Tr. 25-26 (“I don’t think
it is the government’s purview or province to determine what is sufficient once we have determined that
religious work is being done.”).

137a
The City ultimately conceded that the ministers
at issue are “doing religious work.” Tr. 20. Despite
this concession, the circuit court granted the City’s
Motion for Summary Judgment and entered an order
to that effect on February 18, 2020. Tr. 28-29; Order.
The court specifically noted that it considered and relied on all of the materials provided by the parties and
noted the Trustees’ exception to its ruling. Tr. 28-29;
Order. The Trustees timely filed their notice of appeal
on March 11, 2020.
STATEMENT OF FACTS
The material facts are largely undisputed. The
City concedes that NLICC is a Presbyterian church
that is governed by the Presbyterian Book of Church
Order. MSJ 1-2, Tr. 9. NLICC owns the Property at
1708 Franklin Street in Fredericksburg, Virginia and
that the Property is used as a residence. MSJ Memo
1, 3; Tr. 5-6, 18. The Property is occupied by Josh
Storms and Anacari Storms, who both serve as
NLICC’s Directors of College Outreach. MSJ 1-2; Opp.
3 & Ex. A; Tr. 4, 6. NLICC applied for a property tax
exemption for the Property pursuant to Virginia’s tax
exemption for the residence of ministers, which the
City rejected. MSJ, Tr. 5-6. The Property is the only
residence for which NLICC seeks an exemption. Tr.
14, 24-25.
The Storms’ religious duties with NLICC include
evangelism, leading bible study, discipleship, and program management. Opp. 2-4; Worman Aff. ¶¶ 6-11 &
Exh. A. These responsibilities were introduced as disputed facts, but it is undisputed that the Storms “proselytize to members of the college community,” (MSJ
2), do “important work ... for the church,” (Tr. 4), and

138a
are “doing religious work.” (Tr. 20). The City also concedes that NLICC considers the Storms to be ministers. Tr. 6.
ARGUMENT
Standard of Review. Each assigned error is reviewed de novo. Issues of subject matter jurisdiction
are reviewed de novo. Gray v. Binder, 294 Va. 268, 275
(2017). The construction and interpretation of statutes are reviewed de novo. Neal v. Fairfax Cnty. Police Dept., 295 Va. 334, 343 (2018). On appeal of summary judgment, the trial court’s determination that
no genuinely disputed material facts exist and its application of law to the facts are reviewed de novo.
Mount Aldie, LLC v. Land Trust of Virginia, Inc., 293
Va. 190, 196-97 (2017). At summary judgment, courts
must view the facts in the light most favorable to the
non-moving party and to grant all reasonable inferences in favor of the non-moving party. Bloodworth v.
Ellis, 221 Va. 18, 23 (1980).
I.

Review is needed to clarify that Virginia
courts may not overrule a church’s sincerely
held religious beliefs as to who is a minister
under principles of church doctrine and
governance. (Assignment #1)

The Religion Clauses of the Constitution of the
United States and the Constitution of Virginia prohibit courts from “resolv[ing] issues of church governance and disputes over religious doctrine.” Bowie v.
Murphy, 271 Va. 127, 133 (2006). The circuit court
committed constitutional error and exceeded its jurisdiction when it relied on argument that New Life in
Christ Church misinterpreted the Presbyterian Book

139a
of Church Order to hold that NLICC’s Directors of College Outreach are not ministers and deny NLICC a
property tax exemption for their church-owned residence. MSJ Memo 5-8; Tr. 9-11, 27-28. See also Va.
Const. Art. X, § 6(a)(2); Va. Code § 58.1-3606(A)(2).
A. Civil courts may not decide questions of
faith, doctrine, or church governance.
(Assignment #1)
A long line of precedent from the United States
Supreme Court and this Court holds that “generally
civil courts are not a constitutionally permissible forum for a review of ecclesiastical disputes.” Cha, 262
Va. at 610 (citing cases); see also Thomas v. Review
Bd. of Indiana Employment Sec. Div., 450 U.S. 707,
716 (1981) (“Courts are not arbiters of scriptural interpretation.”). Although “what is or is not an ‘ecclesiastical dispute’ is often debatable, issues of church
governance and matters of faith and doctrine are unquestionably outside the jurisdiction of the civil
courts.” Bowie, 271 Va. at 133 (emphasis added); see
also Reid, 229 Va. at 187 (“The threshold inquiry for a
court asked to resolve such a dispute must be whether
... [it] can be decided without reference to questions of
faith and doctrine.”).
When a civil court interprets religious doctrine, it
violates both the First Amendment’s Establishment
Clause and Free Exercise Clause. It violates the Establishment Clause by “entangl[ing]” the court “in issues regarding the church’s governance as well as
matters of faith and doctrine.” Cha, 262 Va. at 613;
see also Our Lady, 140 S. Ct. at 2060 (“[A]ny attempt
by government to dictate or even to influence such
matters [of faith and doctrine] would constitute one of

140a
the central attributes of an establishment of religion.”). It violates the Free Exercise Clause by putting
the weight of the civil law behind its interpretation of
religious doctrine and interfering with a church’s ability to choose its own doctrine. Churches have constitutional guarantees of “‘independence from secular
control or manipulation—in short, power to decide for
themselves, free from state interference, matters of
church government as well as those of faith and doctrine.’” Hosanna-Tabor Evangelical Church & Sch. v.
EEOC, 565 U.S. 171, 186 (2012) (quoting Kedroff v.
Saint Nicholas Cathedral of Russian Orthodox
Church in N. Am., 344 U.S. 94, 116 (1952)).
Similarly, civil courts are not competent to interpret religious doctrine. See Watson v. Jones, 13 Wall.
678, 729 (U.S. 1871) (“It is not to be supposed that the
judges of the civil courts can be as competent in the
ecclesiastical law and religious faith of all these bodies
as the ablest men in each are in reference to their
own.”). Indeed, James Madison, “the leading architect
of the religion clauses in the First Amendment,” Hosanna-Tabor, 565 U.S. at 184, noted, “the idea that a
‘Civil Magistrate is a competent Judge of Religious
truth’ is ‘an arrogant pretension’ that has been ‘falsified.’” Our Lady, 140 S. Ct. at 2070 (Thomas, J., concurring (quoting Memorial and Remonstrance Against
Religious Assessments, in Selected Writings of James
Madison 21, 24 (R. Ketcham ed. 2006))).
This Court has followed the United States Supreme Court in observing that “ecclesiastical decisions are reached and are to be accepted as matters of
faith whether or not rational or measurable by objective criteria.” Cha, 262 Va. at 612 (quoting Serbian E.

141a
Orthodox Diocese for U.S. of Am. & Canada v. Milivojevich, 426 U.S. 696, 713 (1976)). Civil courts lack jurisdiction to second guess a church’s interpretation of
its own doctrine. Id.
Similarly, a court’s consideration of and reliance
on a government official’s interpretation of religious
doctrine in any way is a constitutional violation. See
Jones v. Wolf, 443 U.S. 595, 602 (1979) (“‘[A] State
may adopt ... various approaches for settling church
property disputes so long as it involves no consideration of doctrinal matters, whether the ritual and liturgy of worship or the tenets of the faith.’” (quoting
Md. & Va. Churches v. Sharpsburg Church, 396 U.S.
367, 368 (1970) (Brennan, J., concurring) (emphasis
added))); Serbian E. Orthodox, 426 U.S. at 709 (“To
permit civil courts to probe deeply enough into the allocation of power within a hierarchical church so as to
decide ... religious law (governing church polity) ...
would violate the First Amendment in much the same
manner as civil determination of religious doctrine.”
(citing Md. & Va. Churches, 396 U.S. at 369) (Brennan, J., concurring)). Indeed, the United States Supreme Court has warned:
if the civil courts are to inquire into all these
matters, the whole subject of the doctrinal
theology, the usages and customs, the written
laws, and fundamental organization of every
religious denomination may, and must, be examined into with minuteness and care, for
they would become, in almost every case, the
criteria by which the validity of the ecclesiastical decree would be determined in the civil
court.

142a
Id. at 714.
B. The question of who is a minister pursuant to church doctrine is unquestionably
religious. (Assignment #1)
Under these well-defined principles, the circuit
court erred when it relied on the City’s arguments
that NLICC’s Directors of College Outreach are not
ministers pursuant to the BCO to hold as a matter of
law that their residence does not qualify for a property
tax exemption.
Questions of who is a minister pursuant to church
doctrine are unquestionably beyond the purview of
civil government and jurisdiction of the court. As the
United States Supreme Court unanimously reaffirmed, the question of who is a “minister” is inherently doctrinal. See Hosanna-Tabor, 565 U.S. at 195
(holding that the determination of who is a minister is
“a matter ‘strictly ecclesiastical’” (quoting Kedroff, 344
U.S. at 119)); cf. Denny v. Prince, 68 Va. Cir. 339
(Portsmouth 2005) (declining to decide who is an “active member” of a church).
The United States Supreme Court recently reaffirmed that “[t]he First Amendment protects the right
of religious institutions ‘to decide for themselves, free
from state interference, matters of church government as well as those of faith and doctrine.’” Our
Lady, 140 S. Ct. at 2055 (quoting Kedroff, 344 U.S. at
116). For that reason, the Court’s “decisions ... confirm that it is impermissible for the government to
contradict a church’s determination of who can act as
its ministers.” Hosanna-Tabor, 565 U.S. at 185. The
Fourth Circuit has also noted that “[b]ureaucratic
suggestion in employment decisions of a pastoral

143a
character, in contravention of a church’s own perception of its needs and purposes, would constitute unprecedented entanglement with religious authority.”
Rayburn, 772 F.2d at 1171. “In these sensitive areas,
the state may no more require a minimum basis in
doctrinal reasoning than it may supervise doctrinal
content.” Id. at 1169.
The United States Supreme Court has confirmed
that church interpretations of ministerial status are
entitled to deference because civil judges are not wellsuited to decide who qualifies as a minister under
church doctrine. See Hernandez v. Comm’r of Internal
Revenue, 490 U.S. 680, 699 (1989) (“It is not within
the judicial ken to question ... the validity of particular
litigants’ interpretations of those creeds.”); see also
Our Lady, 140 S. Ct. at 2066 (“A religious institution’s
explanation of the role of [its] employees in the life of
the religion in question is important.”).
Despite these clear prohibitions against overruling a church’s interpretation of its own doctrine and
who serves as its ministers, the circuit court heard
and relied on argument from the City of Fredericksburg that although the college ministers at issue
“have been bestowed by the church as ... a minister”
they are not ministers “under the book of order.” Tr.
27; see also MSJ Memo 5-9; Tr. 10 (“[The BCO] establishes how the New Life in Christ Church is to be organized ... the City’s position is when you have a rule
— a rule book, you have to follow it.”). The Trustees
disputed the City’s interpretation of the BCO and
pointed to the Storm’s religious functions. Opp. 4-6;
Tr. 13, 17-21. Nonetheless, the circuit court relied on
the City’s argument to grant summary judgment. Tr.
28-29; Order. Neither the City nor the civil courts can

144a
tell a church that it has misinterpreted its own ecclesiastical documents, and this Court should grant review to correct this error.
II. Under the religious function test required
by neutral principles of law, New Life in
Christ Church’s Directors of College Outreach are ministers. (Assignment #2)
Although civil courts have no jurisdiction to interpret questions of religious doctrine, they may decide
issues involving religious organizations that can be
decided by “neutral principles of law” rather than inquiry into matters of religious doctrine or governance.
See Reid, 229 Va. at 188 (“The question is simply
whether the court can decide the case by reference to
neutral principles of law, without reference to issues
of faith and doctrine.”). The United States Supreme
Court and numerous federal courts have held, in the
context of determining whether a church employee is
a minister, that neutral principles of law require examining a church employee’s religious functions.
In this case, it is undisputed that the Storms, who
serve as NLICC’s Directors of College Outreach, perform important religious functions. Tr. 4, 20 (conceding the Storms do “important” and “religious” work).
This concession is fatal to the City’s position. As numerous courts have held, employees who perform important religious functions should be treated as ministers under the law. Any narrower interpretation of
“minister” invites disparate treatment of faith traditions and judicial entanglement in religious doctrine,
both of which are clearly prohibited under the constitutions of the United States and of Virginia. The trial

145a
court therefore erred when it held that the Storms are
not ministers for purposes of the tax exemption.
A. Virginia and Federal law require that
courts use a religious function test to determine who qualifies as a minister. (Assignment #2)
The United States Supreme Court, deciding
whether a Lutheran “called teacher” is a minister,
identified four considerations for the purpose of determining whether a person is a “minister” under neutral
principles of law: religious duties, education, title,
and whether the employee held himself out as a minister. Hosanna-Tabor, 565 U.S. at 192. However, the
Supreme Court has since clarified that the primary
consideration is the employee’s religious duties. See
Our Lady, 140 S. Ct. at 2063 (“[O]ur recognition of the
significance of those factors in [Hosanna-Tabor] did
not mean that they must be met—or even that they
are necessarily important—in all other cases. ... What
matters, at bottom, is what an employee does.”).
The Fourth Circuit has also recognized that ministerial status “does not depend upon ordination but
upon function of the position.” Rayburn, 772 F.2d at
1168. Moreover, it expressly warned against courts
looking to religious doctrine for the purposes of determining whether somebody qualifies as a minister. See
Rayburn, 772 F.2d at 1169 (“In these sensitive areas,
the state may no more require a minimum basis in
doctrinal reasoning than it may supervise doctrinal
content.”). Therefore, civil courts facing the question
of whether a church employee is a minister must focus
on the employee’s duties.

146a
B. Because it is undisputed that the Directors of College Outreach do religious
work, the Court should hold they are ministers. (Assignment #2)
When applying the religious function test, the primary question is “whether a position is important to
the spiritual and pastoral mission of the church.”
Rayburn, 772 F.2d at 1169. Here, the City concedes
that the church’s Directors of College Outreach are
“doing religious work,” [Tr. 20], that is “important
work ... for the church.” Tr. 4. This includes proselytizing to college students. MSJ ¶ 5. Because the undisputed facts support holding that the Storms qualify
as ministers under the religious function test, the
Court should grant review to correct the circuit court’s
error in holding the Storms are not ministers.
1. Under the religious function test, employees who do important religious
work qualify as ministers.
Where an employee’s responsibilities contribute to
the religious character of the church, he or she is a
minister. “As a general rule, if the employee’s primary
duties consist of teaching, spreading the faith, church
governance, supervision of a religious order, or supervision or participation in religious ritual and worship,
he or she should be considered clergy.” Rayburn, 772
F.2d at 1169 (quoting Bruce N. Bagni, Discrimination
in the Name of the Lord: A Critical Evaluation of Discrimination by Religious Organizations, 79 COLUMBIA
L. REV. 1514, 1545 (1979)). The United States Supreme Court has likewise held that employees who
“play[] a vital part in carrying out the mission of the

147a
church” should be considered ministers. Our Lady,
140 S. Ct. at 2066.
The Storms’ important religious functions are set
forth in their job description. The Director of College
Outreach is a “missionary position” whose responsibilities include “execut[ing] ministry vision and goals
..., supervising as required, those activities to achieve
ministry goals”; “provid[ing] mentoring, coaching, and
discipleship to ... each member of the college ministry
as required”; and “provid[ing] Bible Study, Discipleship, and Fellowship at least through 1 regularly
scheduled weekly group setting.” Opp., Worman Aff.,
¶ 9 & Ex. A. The Trustees also submitted an affidavit
indicating that the responsibilities also include “establish[ing] and maintain[ing] a ministry catering to
college-aged men and women which spreads the message of the New Life in Christ Church to such young
men and women.” Opp., Worman Aff. ¶ 9. The
Church “views these functions as essential, religious
functions.” Id. at ¶ 10. These responsibilities,
wherein the Storms are NLICC’s representatives to
college students, fall well in line with cases where
courts have held that church employees should be
treated as ministers.
Rayburn is particularly illustrative. 772 F.2d
1164. In holding that a church’s “associate of pastoral
care” qualifies as a minister under neutral principles
of law, the Fourth Circuit noted that her responsibilities included “introducing children to the life of the
church,” “lead[ing] small congregational groups in Bible study,” and serving as “counselor and as pastor to
the singles group.” Id. at 1168. Similar to the Storms,
she was a “liaison between the church as an institution and those whom it would touch with its message.”

148a
Id. In holding that the employee was a minister, the
court considered the “fact that an associate in pastoral
care can never be an ordained minister in her church”
to be “immaterial,” noting that the analysis “does not
depend upon ordination but upon the function of the
position.” Id. Similarly, the court refused to consider
argument that she was not a minister because “the
Seventh-day Adventist Church does not ordain
women,” noting that “the state may no more require a
minimum basis in doctrinal reasoning than it may supervise doctrinal content.” Id. at 1169.
The Fourth Circuit similarly applied a “fact-specific examination of the functions of the position” to
hold that a “Director of Music ministry and [] parttime music teacher” qualified as a minister, noting
that the “functions of the positions are bound up in the
selection, presentation, and teaching of music, which
is an integral part of Catholic worship and belief.”
EEOC v. Roman Catholic Diocese of Raleigh, N.C., 213
F.3d 795, 802 (4th Cir. 2000). This Court has also rejected argument that only full-time employees can be
ministers. Cramer v. Commonwealth, 214 Va. 561,
564 (1974) (“It is a matter of common knowledge that
there are many ministers in Virginia who serve their
congregations with complete fidelity and efficiency
while holding outside employment and deriving the
major portion of their income from such employment.”).
In a similar matter, the Seventh Circuit held that
the “Hispanic Communications Manager” of a Catholic church was a minister under neutral principles of
law. See Alicea-Hernandez v. Catholic Bishop of Chicago, 320 F.3d 698 (7th Cir. 2003). As in Rayburn, the
Court noted that the communications manager “was

149a
‘a liaison between the church as an institution and
those whom it would touch with its message.’” Id.
(quoting Rayburn, 772 F.2d at 1168). The communications manager qualified as a minister under the law
because she “was integral in shaping the message that
the Church presented to the Hispanic community”
and “was responsible for both crafting the message
and determining how best to reach the Hispanic community.” Id. at 704 & n.4. Much like the Hispanic
Communications Manager before the Seventh Circuit,
the Storms are responsible for determining how to
best reach the college-aged community for NLICC.
Although these cases arise in the employment discrimination context, the religious function test is not
limited to that context. The Virginia Attorney General applied a religious function test to affirm that a
church’s “Minister of Music & Education” would qualify for the parsonage tax exemption, noting that his
“duties relate to the religious work of the church, as
opposed to duties which merely facilitate the operation of the church.” 1976 Va. Op. Atty. Gen. 276 (Va.
A.G. 1976).
Similarly, the Tax Court of New Jersey used the
religious function test to determine whether a minister of music’s residence qualified for that state’s exemption for “a parsonage occupied by an officiating
clergyman.” Clover Hill Reformed Church v. Twnshp.
of Hillsborough, 2018 WL 1478024 (N.J. Tax. Mar. 23,
2018). Like Virginia, New Jersey construes tax exemptions narrowly. Id. at *4. Moreover, the court
noted that there is “no officially recognized position in
the Reformed Church of Minister of Music.” Id. at *3.

150a
Nonetheless, the court held that, based on his religious responsibilities, the minister of music was an
“officiating clergyman,” noting:
Where adherents to a faith have a sincerely
held belief that a person is a leader in providing worship services to a congregation, and
that belief is corroborated by objective evidence of that person’s training, experience,
and responsibilities, the courts should hesitate to discount those beliefs because of the
absence of an act, such as ordination, the court
believes is necessary to impart the status of
clergyman. It is not for the judiciary to impose
on a religious congregation its view of who is
or is not a clergyman in that congregation.
Id. at *7.
The Storms undisputedly do work that contributes to the religious mission of NLICC, and the Court
should grant review to correct the circuit court’s holding that they are not ministers as contemplated in Virginia’s tax exemption for the residences of ministers.
2. A narrow construction of “minister”
would be constitutionally suspect and
is unsupported by the text or precedent.
The City argues that the definition of “minister”
in Article X, § 6 and § 58.1-3606 is too narrow to reach
all church employees that do important religious
work. However, a narrower definition would be constitutionally suspect under Supreme Court precedent
and is not supported either by the text of the exemption or precedent.

151a
a. A narrow construction of “minister” under § 58-3606(A)(2) would be
constitutionally suspect.
The City claims that, because tax exemptions are
to be narrowly construed, the Court must hold that a
“minister” means only one “leading the congregation.”
MSJ Memo 8. However, narrow construction of religious exemptions are constitutionally suspect. See
Larson, 456 U.S. at 243 (“Strict or narrow construction of a statutory exemption for religious organizations is not favored.”). Particularly, a narrow construction should be avoided where (1) it invites the
type of religious “entanglement” this Court has repeatedly cautioned against, and (2) the City applies
its construction on an individualized basis.
As the United States Supreme Court observed in
Our Lady, “[i]n a country with the religious diversity
of the United States, judges cannot be expected to
have a complete understanding and appreciation of
the role played by every person who performs a particular role in every religious tradition. A religious institution’s explanation of the role of such employees in
the life of the religion in question is important.” 140
S. Ct. at 2066. Different religions have different leadership structures that courts are ill-equipped to evaluate and reconcile:
A brief submitted by Jewish organizations
makes the point that “Judaism has many
‘ministers,’” that is, “the term ‘minister’ encompasses an extensive breadth of religious
functionaries in Judaism.” For Muslims, “an
inquiry into whether imams or other leaders

152a
bear a title equivalent to ‘minister’ can present a troubling choice between denying a central pillar of Islam—i.e., the equality of all believers—and risking loss of ministerial exception protections.”
Id. at 2064. Accordingly, such judicial line drawing as
to who has “authority” in a church is certain to result
in arbitrary distinctions and government entanglement with religion.
Furthermore, the City conceded that its definition
of minister is based on individualized assessments of
who is a minister. Tr. 10. Although the City contends
the Storms do not qualify as ministers because they
are not ordained, there are a “plethora of churches”
whose unordained ministers would qualify for the exemption. Id. Individualized governmental assessments involving religion, as here, must survive strict
scrutiny. See Church of Lukumi Babalu Aye, Inc. v.
City of Hialeah, 508 U.S. 520, 537 (1993) (“[I]n circumstances in which individualized exemptions from a
general requirement are available, the government
‘may not refuse to extend that system to cases of ‘religious hardship’ without compelling reason.” (quoting
Employment Div., Dept. of Human Resources of Ore. v.
Smith, 494 U.S. 872, 884 (1990))).
By requiring some churches, like NLICC, to prove
ordination for tax-exempt status, but allowing other
churches to claim tax exempt status without proving
ordination, the City also expresses preference for certain denominations over others in violation of the Establishment Clause. See Larson, 456 U.S. at 246
(“[W]hen we are presented with a state law granting
a denominational preference, our precedents demand

153a
that we treat the law as suspect and that we apply
strict scrutiny in adjudging its constitutionality.”).
b. The City’s narrow construction is
not supported by the exemption’s
text or by precedent.
Not only are narrow interpretations of religious
exemptions constitutionally suspect, a narrow interpretation of “minister” is neither supported by the text
or judicial precedent. The City views as significant
that the tax exemption statute refers to “the minister
of a church” rather than the “ministers of a church.”
Va. Code. § 58.1-3606(A)(2). However, under Virginia’s rules of statutory construction, the singular includes the plural and the plural includes the singular.
Va. Code § 1-227. Indeed, this Court has held that it
“is by no means clear that it was the intent of the constitutional revisors of 1902 and of the General Assembly to restrict the tax exemption to the residence of
only one minister for each church or religious body.”
Cudlipp v. City of Richmond, 211 Va. 712, 713 (1971).
The City’s narrow construction is also unsupported by precedent. Although this Court has stated
in dicta that a minister (as used in a marriage licensing statute) is “the head of a religious congregation,
society, or order,” that is only in the context of distinguishing between “members” and “ministers.”
Cramer, 214 Va. at 566. The Court makes this clear
just one sentence earlier – “A church which consists of
all ministers, and in which all new converts can become instant ministers, in fact has no minister.” Id.
The Court did not indicate that a group of selected individuals from one church could not all qualify as ministers. Notably, the individuals at issue in Cramer

154a
would fail the religious functions test. “[N]o ceremony, oath or form” was required to become a minister. Id. at 562-63. “In fact, one could become an ordained Universal minister without his knowledge.” Id.
at 563. Moreover, the Court expressly rejected the
Commonwealth’s argument that “minister” only included those for whom ministry is a full-time vocation.
Id. at 563-64.
Similarly, when determining that a Bishop Coordinator was a minister for purposes of tax exemption,
the Court observed that he was the “final authority”
in his area of responsibility. Cudlipp, 211 Va. at 713.
But there is no question that a church employee with
some form of “final authority” in religious matters is a
minister under neutral principles of law. Nothing in
Cudlipp can be read to say that only persons with final
authority are ministers. Indeed, the Court noted that
the City of Richmond had “extended the exemption to
church-owned residences of assistant ministers of local churches,” without any suggestion of impropriety.
Id. (emphasis added). The court’s error in holding the
Storms are not ministers despite the City’s concession
that they do important religious work calls for review.
III. In the alternative, there are material questions of fact that preclude summary judgment. (Assignment #3)
The City’s admission that NLICC’s Directors of
College Outreach do important religious work means
that this Court should hold that they are ministers as
a matter of law. See Part II, supra. In the alternative,
the Court should hold that for the reasons stated
above, the facts presented as to the Storms’ religious

155a
functions demonstrate that disputed issues of material fact remain and that the circuit court’s grant of
summary judgment was improper. Summary judgment is a “drastic remedy” which is available only
where there are no “material facts genuinely in dispute.” Slone v. General Motors Corp., 249 Va. 520, 522
(1995) (internal citations omitted). Ordinarily, facts
developed through discovery should not supplant the
taking of evidence at trial. Carson v. LeBalanc, 245
Va. 135, 137 (1993). There are sufficient facts in the
record to demonstrate that the Storms had some level
of religious authority at NLICC. Opp. 2-4; Worman
Aff. & Ex. A. The Trustees should be given an opportunity to develop a record as to the Storms’ role at
NLICC. Tr. 24-25. The trial court therefore erred
when it granted summary judgment on this record
and this Court should grant review.
CONCLUSION
For the foregoing reasons, the Court should grant
this Petition, and upon hearing this case, reverse the
circuit court’s grant of summary judgment, hold that
the Storms are ministers under Va. Const. Art. X, § 6
and Va. Code. § 58.1-3606(A)(2), hold that NLICC is
entitled to a property tax exemption for the Storms’
residence, and grant Appellant all relief to which it is
entitled. In the alternative, the Court should hold
that summary judgment was granted in error and remand to the trial court for further proceedings.
Respectfully submitted,
TRUSTEES OF THE NEW
LIFE IN CHRIST CHURCH
By Counsel:

156a
/s/ Reed N. Smith
Reed N. Smith (VSB # 77334)
Christian Legal Society
Center for Law & Religious Freedom
8001 Braddock Rd., Ste 302
Springfield, Virginia 22151
Phone: (703) 642-1070
Fax: (703) 642-1075
rsmith@clsnet.org

157a
CERTIFICATE
Pursuant to Rule 5:17(i), I hereby certify that:
The Appellant is the Trustees of the New Life In
Christ Church. The name, address, telephone number, facsimile number, email address, and Virginia
State Bar Number of its counsel are:
Reed N. Smith (VSB #77334)
Christian Legal Society
Center for Law and Religious Freedom
8001 Braddock Rd., Ste 302
Springfield, VA 22151
Phone: (703) 642-1070
Fax: (703) 761-5023
rsmith@clsnet.org
The Appellee is the City of Fredericksburg. The
names, addresses, telephone numbers, facsimile numbers, email addresses, and Virginia State Bar Numbers of its counsel are:
John A. Rife, Esq. (VSB
# 45805)
Taxing Authority Consulting
Services, PC
P.O. Box 31800
Henrico, Virginia 23294
Phone: (804) 545-2500
Fax: (804) 545-2378
john@taxva.com

Kathleen Dooley (VSB #
25725)
Fredericksburg City Attorney
600 Caroline Street
Fredericksburg, VA
22401
Phone: (540) 372-1020
kdooley@fredericksburgva.gov

158a
I HEREBY certify that on this 21st day of September, 2020, a copy of the foregoing Petition for Appeal
was sent by electronic mail and first-class mail to all
counsel named below. Counsel for appellant desire to
state orally and in person to a panel of this Court why
this petition should be granted.
John A. Rife, Esq. (VSB
# 45805)
Taxing Authority Consulting
Services, PC
P.O. Box 31800
Henrico, Virginia 23294
Phone: (804) 545-2500
Fax: (804) 545-2378
john@taxva.com

Kathleen Dooley, Esq.
(VSB # 25725)
Fredericksburg City Attorney
600 Caroline Street
Fredericksburg, VA
22401
Phone: (540) 372-1020
kdooley@fredericksburgva.gov

Counsel for the City of
Fredericksburg

/s/ Reed N. Smith
Reed N. Smith, Esq.
Counsel for Plaintiff-Appellant

159a
Appendix I
IN THE
SUPREME COURT OF VIRGINIA
RECORD NO. 201156
TRUSTEES OF THE NEW LIFE
IN CHRIST CHURCH,
Petitioner,
v.
CITY OF FREDERICKSBURG,
Respondent.
____________
BRIEF IN OPPOSITION
____________
R. Lucas Hobbs, VSB #
42861
ELLIOTT LAWSON &
MINOR, P.C.
110 Piedmont Avenue,
Suite 300
Bristol, VA 24201
(276) 466-8400 (Telephone)
(276) 466-8161 (Facsimile)
lhobbs@elliottlawson.com

Kathleen Dooley, VSB #
25725
Fredericksburg City Attorney
600 Caroline Street
Fredericksburg, VA
2401
(540) 372-1020 (Telephone)
(540) 372-1121 (Facsimile)
kdooley@fredericksburgva.gov

John A. Rife, VSB # 45805
TAXING AUTHORITY CONSULTING SERVICES,

160a
P.C.
P.O. Box 31800
Henrico, VA 23294-1800
(804) 545-2500 (Telephone)
(804) 545-2378 (Facsimile)
john@taxva.com
Counsel for Respondent

161a
TABLE OF CONTENTS
TABLE OF AUTHORITIES ........................................ii
INTRODUCTION ........................................................ 1
STATEMENT OF FACTS AND THE CASE .............. 2
SUMMARY OF ARGUMENT ..................................... 3
STANDARDS OF REVIEW ........................................ 4
ARGUMENT ............................................................... 5
I.

The circuit court did not err in determining
that “the minister” of NLICC did not reside
at the Property. ............................................. 5

II. The circuit court did not interpret the
Church’s Book of Order or question the
Church’s religious doctrine or the sincerity
of its beliefs. ................................................... 9
III. The Trustees’ arguments invite either
excessive governmental entanglement with
religion, or abuse, distorting the statute.... 11
IV. The circuit court did not err in granting
summary judgment as no material facts
were in dispute. ......................................... 12
CONCLUSION .......................................................... 12
REQUEST FOR NOTICE OF ORAL ARGUMENT
.................................................................................. 1
CERTIFICATE OF SERVICE ................................ 15

162a
TABLE OF AUTHORITIES
CASES
Cha v. Korean Presbyterian Church of Washington, 262 Va. 604, 553 S.E.2d 511 (2001).............10
Cramer v. Commonwealth, 214 Va. 561, 202
S.E.2d 911 (1974) ......................................7, 11, 13
Cudlipp v. City of Richmond, 211 Va. 712, 180
S.E.2d 525 (1971) ..................................................6
DKM Richmond Associates, L.P. v. City of Richmond, 249 Va. 401, 457 S.E.2d 76 (1995) ............4
Klaiber v. Freemason Assocs., Inc., 266 Va. 478,
587 S.E.2d 555 (2003) ...........................................5
LZM, Inc. v. Virginia Dept. of Taxation, 269 Va.
105, 606 S.E.2d 797 (2005) ...................................5
Pure Presbyterian Church of Washington v.
Grace of God Presbyterian Church, 296 Va.
42, 817 S.E.2d 547 (2018) ..............................9, 10
Reid v. Gholson, 229 Va. 179, 327 S.E.2d 107
(1985) .....................................................................9
Virginia Baptist Homes, Inc. v. Botetourt
County, 276 Va. 656, S.E.2d 119 (2008) ............. 5
CONSTITUTION AND STATUTES
Va. Const. art. X, § 1 ..................................................4
Va. Const. art. X, § 6 .................................. passim
Va. Code § 58.1-3606(A)(2) .......................... passim

163a
INTRODUCTION
This case is not about who may be a minister of
the Appellants’ church, or of any church. Rather, this
case involves the neutral application of a tax statute
to facts established by the church’s actions and admissions.
Those actions and admissions show that neither
of the residents of the property in question are “the
minister” of Appellants’ church, as required under
Virginia Code § 58.1-3606(A)(2) for the property to be
exempt from ordinarily-required real estate taxes.
The circuit court did not dictate to Appellants who
could or could not be involved in the ministries of their
church. Instead, the issue in this case is whether either of the residents of the real estate were “the minister” of that church, as that phrase is used in the statute.
The statute provides an exemption for “the residence of the minister” of any church. If the exemption
applied to “every” residence of “any” minister of a
church, this would be a very different case – the case
that the Appellants seek to portray in their Petition
for Appeal. But it is not, and accordingly, the City requests that this Court decline to grant the Petition for
Appeal.
STATEMENT OF FACTS AND THE CASE
New Life in Christ Church (“NLICC” or “the
Church”) owns real property at 1708 Franklin Street
in Fredericksburg, Virginia (“the Property”). (Am.
Compl. ¶ 4; Ans. ¶ 4). The Property is occupied as a
residence by Josh Storms and Anacari Storms (collec-

164a
tively “the Storms”), both of whom are part-time employees of the Church. (Church’s Resp. to Interrogs.
Nos. 1 and 3). There is no dispute that the Storms do
religious work for the Church. (Tr. at 20, lines 18-21).
NLICC is a Presbyterian Church governed by the
Presbyterian Church Book of Church Order (“BCO”).
(Church’s Resp. to Interrog. No. 5). Under the BCO,
the pastoral relations of the Church are pastor, associate pastor, and assistant pastor. (BCO, Ch. 22).
Neither of the Storms serve as pastor, associate
pastor or assistant pastor of NLICC, nor are they the
Church’s Founding Pastor or Lead Pastor. (Church’s
Resp. to Interrog. Nos. 7 and 10). Nor are either of
them named on the Church’s website which describes
its pastor transition plan. (Church’s Resp. to Interrog.
No. 9).
Neither of the Storms have preached any sermons
during the Church’s regular Sunday morning services, and neither of them are teaching elders.
(Church’s Resp. to Interrogs. Nos. 4 and 12; Church’s
Resp. to Request for Documents No. 5). Finally, Mrs.
Storms is not eligible to serve as pastor of NLICC.
(Church’s Resp. to Interrog. No. 11).
The Church’s Trustees filed a Complaint for Declaratory Relief in the circuit court. After the City
filed a Demurer to the Complaint, the Trustees filed
an Amended Complaint, asking the circuit court to declare that the Property was exempt from real estate
taxation by the City under Virginia Code § 58.13606(A)(2) and Va. Const. art. X, § 6(a)(2). Following
written discovery, the City moved for summary judgment, which the circuit court granted. This appeal followed.

165a
SUMMARY OF ARGUMENT
The circuit court properly held that there was no
dispute of material fact, and that the facts established
by the pleadings and NLICC’s written discovery responses established that neither of the Storms was
“the minister” of the Church, as that term is used in
Virginia Code § 58.1-3606(A)(2). Thus, the circuit
court concluded that the Property was not eligible for
exemption from City real estate taxes.
In rendering its decision, the circuit court did not
interpret or question the Church’s doctrine or beliefs,
but simply applied the undisputed facts to the neutral
statute enacted by the General Assembly.
The approach advocated by the Church, on the
other hand, either would invite the government to
make detailed examination of religious workings, possibly in violation of the First Amendment, or would
invite abuse of the legislative grace provided by the
General Assembly. Neither approach would be consistent with the relevant statute and state constitution.
STANDARDS OF REVIEW
Review of any claim of exemption from taxes must
start with acknowledgement of the relevant constitutional provisions.
“Exemptions of property from taxation . . . shall be
strictly construed” against the taxpayer. Va. Const.
art. X, § 6(f). “All property [in Virginia], except as . . .
provided [otherwise], shall be taxed.” Va. Const. art.
X, § 1. See also DKM Richmond Associates, L.P. v.
City of Richmond, 249 Va. 401, 407, 457 S.E.2d 76, 80

166a
(1995) (“In Virginia, the general policy is to tax all
property.”).
“Under this rule, exemption from taxation is the
exception, and any doubt is resolved against the one
claiming the exemption.” DKM Richmond Associates,
L.P., 249 Va. at 407, 457 S.E.2d at 80. “[T]he taxpayer
has the burden to establish that it comes within the
terms of the exemption.” Id. “When a tax statute is
susceptible to two constructions, one granting an exemption and the other denying it, the latter construction is adopted.” LZM, Inc. v. Virginia Dept. of Taxation, 269 Va. 105, 110, 606 S.E.2d 797, 799 (2005).
“[T]he issue of property tax exemption is a mixed
question of fact and law.” Virginia Baptist Homes,
Inc. v. Botetourt County, 276 Va. 656, 663, S.E.2d 119,
122 (2008). The questions of statutory interpretation
are reviewed on a de novo basis. Id. Where, as here,
the matter below was decided on summary judgment
following written discovery, the required deference to
the circuit court’s factual findings must be tempered
by reviewing the facts in the light most favorable to
the Church. See id., Klaiber v. Freemason Assocs.,
Inc., 266 Va. 478, 481-82, 587 S.E.2d 555, 556 (2003).
ARGUMENT
I.

The circuit court did not err in determining that “the minister” of NLICC did not
reside at the Property.

Virginia provides an exemption from real estate
taxes for church-owned property used for specified
purposes. Va. Const. art. X, § 6(a)(2). This exemption
is strictly construed, id. art. X, § 6(f), unlike the liberal
rule of construction followed under the pre-1971 constitution in an earlier case involving a predecessor

167a
statute and a prior constitutional provision. Cudlipp
v. City of Richmond, 211 Va. 712, 713, 180 S.E.2d 525,
526 (1971).
“[T]he General Assembly by general law may restrict or condition, in whole or in part, but not extend,”
this exemption. Va. Const. art. X, § 6(c). Consistent
therewith, the General Assembly limited the real
property exempt from taxation to that which is
owned by churches or religious bodies, . . .
and exclusively occupied or used for religious worship or for the residence of the
minister of any church or religious body, and
such additional adjacent land reasonably necessary for the convenient use of any such property.
Virginia Code § 58.1-3606(A)(2) (emphases added).
These statutory provisions require a landowner
claiming the exemption to show three facts: 1) that
the property is owned by a church or religious body;
2) that the property is used a residence; and 3) that
the occupant of the residence is “the minister” of the
church or religious body. These tests all must be met
in order for the property to qualify for the exemption.
In this case, only the first two conditions are met, rendering the exemption inapplicable to the Property.
NLICC owns the Property, and the Storms reside
there. But, neither of the Storms are “the minister” of
the Church. The Storms are not pastors or teaching
elders of the Church, do not exercise sacramental or
administrative authority over the Church, and have
not been “set apart as the leader” of the Church. See
Cramer v. Commonwealth, 214 Va. 561, 567, 202
S.E.2d 911, 915 (1974),

168a
In Cramer, this Court interpreted the term “minister” in the context of a statute governing who may
officiate marriage ceremonies. There, the Court
stated, “[t]he minister referred to there is the head of
a religious congregation, society or order. He is set
apart as the leader. He is the person elected or selected in accordance with the ritual, bylaws or discipline of the order.” Id.
The guidance provided thereby and the Trustees’
responses to discovery lay bare that neither of the residents of the Property are “the minister” of the
Church. Not all persons who do good, meaningful, and
religious works for a church are “set apart as the
leader” of the church, being neither “elected or selected in accordance with the ritual, bylaws or discipline of the order.” Id. at 561, 567, 202 S.E.2d at 915.
In many religious traditions, persons may “minister” to others without being “the minister” of any
church. This fact does not lessen the value of their
contributions, nor does it question the sincerity of
their faith and beliefs. It merely means that, in the
context of real estate taxation, as here, taxes are due
on the property in which they reside.
Put another way, a church may have many persons performing important religious work, but it may
benefit from a real estate tax exemption for only the
residence of the one it sets apart as its leader.1 As the
1

The employment law cases relied on by the Church have no
relevance to the determination of who is “the minister” of the
Church under Code section 58.1-3606(A)(2). The relevant statute simply applies the facts established by the church’s own actions to provide a limited exemption from generally applicable
real estate taxation.

169a
statute clearly says, it is for “the residence of the minister,” not “every” residence of “any” minister, no matter the good works performed by such resident.
Effectively the statute providing a limited exemption from taxation of real estate says to churches or
religious bodies “you tell us who your leader is, and if
they reside in church-owned property, we will exempt
that specific property from taxation.” NLICC cannot
in good faith say that either of the Storms are its
leader.
Instead, the undisputed facts show that NLICC
owns the Property and the residence is occupied, but
it is not occupied by “the minister” of NLICC as is required for qualification under Virginia Code §58.13606(A)(2). These exemptions are narrowly construed
and, as such, neither of the Church’s part-time employees, the Storms, are “the minister” of NLICC, for
real estate tax exemption purposes.
II.

The circuit court did not interpret the
Church’s Book of Order or question the
Church’s religious doctrine or the sincerity of its beliefs.

While courts are disinclined to meddle in the business of religious bodies, that principle does not prohibit a court from observing and giving recognition to
the organizational structures of a church, as established by the church itself, to determine the qualifications for a statutory tax exemption. The Trustees
make bare allegations without any factual support
that the circuit court interfered with NLICC’s organizational structure. Nothing could be further from the
truth.

170a
It is well-established that courts may, and should,
apply “neutral principles of law” to disputes involving
church property. Reid v. Gholson, 229 Va. 179, 188–
9, 327 S.E.2d 107, 112 (1985).
Whether taxes are assessed on a piece of real estate is not an inherently ecclesiastical decision. See
Pure Presbyterian Church of Washington v. Grace of
God Presbyterian Church, 296 Va. 42, 53, 817 S.E.2d
547, 553 (2018). Eligibility of a piece of real estate for
tax exemption might have some small effect on church
governance, but that is no bar to a civil court’s application of “neutral principles of law.” Id. at 54, 817
S.E.2d at 554.
The circuit court did not question, and certainly
did not overrule, the Church’s sincerely-held religious
beliefs. The court simply applied the facts the Church
helped establish to the neutral statute.
The circuit court did not interpret the BCO. Instead, NLICC identified the BCO as its governing document, and the parties provided the circuit court with
excerpts from the BCO, none of which expressly were
relied on by the circuit court.
Even if the circuit court relied on the plain language of what the Church said was its governing documents, there would be no error in violation of this
Court’s holding in Cha v. Korean Presbyterian Church
of Washington, 262 Va. 604, 553 S.E.2d 511 (2001), because the circuit court would not be imposing its secular judgment to second guess a decision about retention of a pastor.
The Church cannot set its rules in the BCO and
expect for a court to ignore their plain language when

171a
the Church tells the court, in an action that its Trustees filed, that the Church is governed by the rules
therein. To be clear, no interpretation of the BCO, or
any of NLICC’s religious doctrine was required, or undertaken, for the circuit court to observe that the
Church had established its order of pastoral relations,
and that neither of the Storms had been “elected or
selected,” see Cramer, 214 Va. at 567, 202 S.E.2d at
915, to fill any of those roles.
III. The Trustees’ arguments invite either excessive governmental entanglement with
religion, or abuse, distorting the statute.
The Appellants’ arguments would result either in
excessive entanglement of church and state, as local
governments attempt to measure and gauge the importance and scope of work done by those offered as
“the minister,” or would invite abuse of the exemption
from taxation of church-owned property. Neither result is consistent with the plain language of the statute, which itself is thoroughly consistent with Article
X of the state constitution.
To avoid excessive entanglement, the Trustees
would have the courts take the claimant of the exemption at their word that the occupant is “the minister”
of the religious body. The history of this case shows
why that is not proper.
The Amended Complaint in the proceeding alleged that the Property was the residence of “the
Church Minister.” (Am. Compl. ¶ 7). Only after the
City engaged in discovery did the Trustees admit that
the occupants of the Property were in fact two of the

172a
Church’s part-time employees. (Church’s Resp. to Interrogs. Nos. 1 and 3). The adoption of a “just trust
us” approach would lead to abuse of the exemption.
IV. The circuit court did not err in granting
summary judgment as no material facts
were in dispute.
The Trustees alternatively contend they should
have been able to present additional facts about the
Storms’ role at NLICC.
However, at oral argument before the circuit
court, NLICC was unable to identify any material
facts in dispute. (Tr. at 19, lines 11-17). At most, the
Church said only that it could present additional evidence of the religious work done by the Storms. (Tr. at
25, lines 18-25, and at 26, lines 1-12). However, the
City did not dispute that fact, (Tr. at 20, lines 18-21),
such that further evidence of the Storms’ good works
would not have revealed any dispute of material fact.
CONCLUSION
As in Cramer, “[t]his case is not one concerning
the guarantee of religious freedom as provided in the
Constitution, but one of a proper construction of” a
neutral statute lawfully enacted “as an exercise by the
General Assembly of its legislative power” under Article X, § 6(c) of the state constitution. Cramer, 214
Va. at 564, 202 S.E.2d at 914.
For the reasons stated above, the circuit court’s
determination was well founded based upon law and
the undisputed facts presented. The Property does
not qualify for the real estate tax exemption afforded
under Virginia Code § 58.1-3606(A)(2) and therefore,
the Petition should be denied.

173a
REQUEST FOR NOTICE OF ORAL
ARGUMENT
Respondent requests notice of oral argument on
the Petition for Appeal.

RESPECTFULLY SUBMITTED,
CITY OF FREDERICKSBURG
By counsel
R. Lucas Hobbs
R. Lucas Hobbs, VSB # 42861
ELLIOTT LAWSON & MINOR, P.C.
110 Piedmont Avenue, Suite 300
Bristol, VA 24201
(276) 466-8400 (Telephone)
(276) 466-8161 (Facsimile)
lhobbs@elliottlawson.com
Counsel for Respondent City of Fredericksburg
John A. Rife, VSB # 45805
TAXING AUTHORITY CONSULTING SERVICES,
P.C.
P.O. Box 31800
Henrico, VA 23294-1800
(804) 545-2500 (Telephone)
(804) 545-2378 (Facsimile)
john@taxva.com
Counsel for Respondent City of Fredericksburg
Kathleen Dooley, VSB # 25725
Fredericksburg City Attorney
600 Caroline Street

174a
Fredericksburg, Virginia 22401
(540) 372-1020 (Telephone)
(540) 372-1121 (Facsimile)
kdooley@fredericksburgva.gov
Counsel for Respondent City of Fredericksburg

175a
CERTIFICATE OF SERVICE
On this 13th day of October, 2020, pursuant to the
Rules of the Supreme Court of Virginia, the required
number of true copies of this Brief in Opposition were
filed in the Office of the Clerk of the Supreme Court of
Virginia, and on the same day, one true copy was
mailed by first- class mail
to:
Reed N. Smith, VSB # 77344
Christian Legal Society
Center for Law and Religious Freedom
8001 Braddock Road, Suite 302
Springfield, Virginia 22151
(703) 642-1070 (tel)
(703) 642-1075 (fax)
rsmith@clsnet.org
Counsel for Appellant

R. Lucas Hobbs

